<html>
<title> - IMPROVING TRANSPORTATION OPTIONS IN RURAL STATES AND TRIBAL AREAS UNDER MAP-21</title>
<body><pre>[Senate Hearing 113-12]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-12
 
IMPROVING TRANSPORTATION OPTIONS IN RURAL STATES AND TRIBAL AREAS UNDER 
                                 MAP-21

=======================================================================


                             FIELD HEARING

                               before the

                              COMMITTEE ON

                   BANKING,HOUSING,AND URBAN AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING ISSUES RELATED TO THE IMPLEMENTATION OF MAP-21 AND THE NEED 
 FOR COORDINATION BETWEEN TRANSIT PROVIDERS AND SOCIAL SERVICE AGENCIES

                               __________

                             MARCH 28, 2013

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
80-696                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

               Homer Carlisle, Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)



                            C O N T E N T S

                              ----------                              

                        THURSDAY, MARCH 28, 2013

                                                                   Page

Opening statement of Chairman Johnson............................     1

                               WITNESSES

Peter M. Rogoff, Administrator, Federal Transit Administration, 
  Department of Transportation...................................     2
    Prepared statement...........................................    29
Darin Bergquist, Secretary, South Dakota Department of 
  Transportation.................................................     5
    Prepared statement...........................................    34
Cosette Fester, Sioux Area Metro Paratransit Rider...............    13
    Prepared statement...........................................    39
Lynne Keller Forbes, Executive Director, South Eastern Council of
  Governments....................................................    14
    Prepared statement...........................................    39
Emma Featherman-Sam, Coordinator, Oglala Sioux Transit...........    16
    Prepared statement...........................................    41
Barbara K. Cline, Executive Director, Prairie Hills Transit, 
  Spearfish, South Dakota........................................    17
    Prepared statement...........................................    44
Michael Cooper, Director of Planning and Building Services, City 
  of Sioux Falls, South Dakota...................................    19
    Prepared statement...........................................    46
Sarah Jennings, State Director, AARP South Dakota................    20
    Prepared statement...........................................    47

                                 (iii)


IMPROVING TRANSPORTATION OPTIONS IN RURAL STATES AND TRIBAL AREAS UNDER 
                                 MAP-21

                              ----------                              


                        THURSDAY, MARCH 28, 2013

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                   Sioux Falls, SD,
    The Committee met at 2 p.m., at Carnegie Town Hall, 235 
West 10th Street, Sioux Falls, South Dakota, Hon. Tim Johnson, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. Good afternoon. This hearing will come to 
order.
    Today, the Banking Committee holds its first full Committee 
hearing on transit and transportation issues since Congress 
passed a 2-year surface transportation bill, MAP-21, which 
President Obama signed into law last July.
    I have long recognized the importance of public transit in 
South Dakota. Affordable and accessible transit gives people a 
freedom and mobility that many of us take for granted, and I am 
glad we can be here in South Dakota to talk about how public 
transportation helps so many individuals and families get where 
they need to go, whether they are commuting to work, buying 
groceries, or visiting the doctor. Rural transit also helps 
people stay in their communities as they age or travel to work 
while saving money on gas.
    As Chairman of the Senate Banking Committee, I was proud to 
work with both Republicans and Democrats last year to pass a 
bipartisan transportation bill that strengthens highway and 
transit programs and expands funding for rural States. I worked 
closely with our Committee's prior Republican ranking Member, 
Senator Shelby of Alabama, to develop the public transportation 
portion of MAP-21. Our Committee approved its provisions with 
unanimous bipartisan support, and the full Senate passed MAP-21 
with a strong bipartisan majority.
    MAP-21 does not solve all of the long-term issues facing 
the Highway Trust Fund, but the law increases support for 
public transportation and highways for 2 years. In fact, South 
Dakota's transit formula funding is significantly boosted by 
MAP-21, but even more funding is needed for bus replacement and 
highway improvements. MAP-21 represents a solid Federal 
commitment to transportation investment in a difficult budget 
environment. The bill supports 10,000 jobs in South Dakota, 
about 500 of which are connected to transit. I will continue to 
build on the progress we have made and work to strengthen the 
Federal commitment to transportation programs in our State.
    South Dakota's total transit formula funding increases 
significantly in fiscal year 2013, growing about 48 percent to 
$14.8 million, up from $10 million in fiscal year 2012. This 
increase in formula funds was designed to replace earmarks and 
competitive awards previously used for bus replacement and 
travel transit. Highway and transit formula funds were not 
subject to sequestration, but some of FTA's programs, including 
its administrative funding, were reduced. MAP-21 doubles 
funding for the tribal transit program to $30 million annually.
    Today, we are joined by some important leaders who helped 
make MAP-21 a reality. The U.S. Department of Transportation 
and the Federal Transit Administration share my belief in the 
importance of transit options in rural America, and I am very 
pleased to welcome FTA Administrator Peter Rogoff today.
    This is Administrator Rogoff's second trip to South Dakota 
since I took over as Chairman of the Banking Committee. He 
accompanied Transportation Secretary Ray LaHood on a visit to 
Pierre last October where we all took part in the grand opening 
of the newly expanded River Cities Public Transit Facility.
    The State of South Dakota has also championed the Federal 
role in transportation for both highways and transit. I thank 
our Secretary of Transportation Darin Bergquist for joining us 
today. And, finally, our second panel is made up of those who 
understand public transportation best, representatives of the 
users and operators of transit in South Dakota.
    In a large, sparsely populated State like ours, transit 
providers cover long distances, which puts increased wear-and-
tear on their vehicles and requires significant coordination to 
stretch limited resources. They are rising to the challenge by 
working hard to coordinate service with a number of Federal, 
State, and local partners.
    Transit has become quite meaningful for members of South 
Dakota's tribes as well. It provides tribal members more 
connections to jobs, better access to medical care, and easier 
trips for shopping and school. In recognition of that growing 
importance, the new formula funding I authored will bring 
significant guaranteed funding to strengthen South Dakota 
tribal transit providers.
    Thank you to all of the witnesses for traveling here today, 
and thank you for your commitment to improving transportation 
for all Americans. With that, I would like to invite 
Administrator Rogoff to begin his testimony. Peter.

 STATEMENT OF PETER M. ROGOFF, ADMINISTRATOR, FEDERAL TRANSIT 
          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Rogoff. Thank you, Chairman Johnson, and on behalf of 
President Obama and Transportation Secretary Ray LaHood, I am 
delighted to be in Sioux Falls today to highlight the 
Administration's support for public transportation in South 
Dakota and across the Nation.
    Mr. Chairman, we are very grateful for your leadership in 
helping ensure the passage of our new 2-year public 
transportation law known as MAP-21. Along with Members of this 
Committee, you worked hard to achieve a true bipartisan victory 
by securing passage of a good bill that will create and support 
jobs when we need them most, while building a strong foundation 
to bring more transportation choices to Americans everywhere, 
including right here in your home State.
    Secretary LaHood and I understand that in a State like 
South Dakota it is important to invest in transportation 
solutions that meet everyone's needs, from commuters living in 
Sioux Falls to working families, seniors, and veterans living 
in rural towns and on tribal lands. That is why FTA has sent 
millions of taxpayer dollars to this State over the last 4 
years to modernize, repair, and enhance transit service so that 
everyone who needs a ride can find one, whether it is for 
getting to work, to the doctor, to school, or to the grocery 
store.
    It is why we have awarded grants over the last 2 years to 
help Pierre, Spearfish, Sturgis, and other communities ensure 
that every military veteran or servicemember living in the 
region has ready access to a reliable ride so they can 
participate fully in their communities.
    And it is why Secretary LaHood will soon award a $1 million 
grant through the Department's TIGER 4 program to the Yankton 
Sioux Tribe to build a new transit facility in Marty that will 
result in more reliable bus service in a rural and economically 
distressed Native American community where transit is a 
lifeline, not a luxury.
    MAP-21 allows us to continue making a difference for South 
Dakota residents and their communities. For example, under MAP-
21, South Dakota can expect to receive an apportionment of $5.9 
million for transit service in rural areas and on tribal lands. 
This amount is 17 percent higher than what was received last 
year, which I think we can all recognize was a direct result of 
your leadership on boosting funding for rural transit.
    In addition, MAP-21 doubles the funds available nationally 
for tribal transit. That means 2 years of steady, predictable 
funding for capital, operating, and planning needs that are so 
important for connecting men and women of all ages with work, 
with family, and with other opportunities.
    Many tribal governments in South Dakota have developed and 
implemented successful transit programs. Under MAP-21, FTA will 
continue to help these tribes to provide thousands of rides and 
put paychecks in workers' pockets. We have consulted with 
tribal officials and others in an effort to finalize how these 
formula funds will be allocated.
    We are pleased that MAP-21 included a new transit emergency 
relief program, first proposed by the Obama administration in 
2012. It is a very long way away from South Dakota, but I can 
tell you we have already put half a billion dollars to work on 
repairs resulting from Hurricane Sandy, and it is because you 
had authorized this emergency relief program for transit 
nationally that we were able to move so quickly. This program 
will also help States and public transportation systems, 
including those in South Dakota, to pay for protecting, 
repairing, and/or replacing equipment and facilities that may 
suffer or have suffered serious damage as a result of an 
emergency or natural disaster such as floods, hurricanes, and 
tornadoes.
    On the other end of the spectrum, under our Urbanized Area 
Formula program, South Dakota receives about $3.6 million in 
fiscal year 2013, a 16-percent increase over last year. And the 
program tackles an ongoing challenge by expanding eligibility 
for operating expenses among smaller systems based on fleet 
size while preserving it for transit agencies in small cities 
like Sioux Falls and Rapid City.
    MAP-21 also folded a portion of our discretionary bus 
program into a formula program focused solely on bus state of 
good repair needs so every agency has a predictable stream of 
Federal funds to maintain reliable, desirable transit that is 
also safe.
    South Dakota can count on $1.25 million in fiscal year 2013 
to be used anywhere in the State to modernize and upgrade bus 
service. Sioux Falls and other cities in South Dakota may be 
eligible for these funds through the State's allocation.
    Mr. Chairman, I have mentioned just some of the MAP-21 
programs that will strengthen public transportation here in 
South Dakota. In my view, MAP-21 can also be viewed as the 
culmination of the priorities and policies that we have worked 
for together and have implemented consistently since the first 
day of the Obama administration.
    Across the United States, MAP-21 allows FTA, for the first 
time, to establish and enforce basic, commonsense safety 
standards for transit. Many people did not know this, but FTA 
has been specifically prohibited in law from implementing even 
the most basic transit safety standards since 1964, and you 
helped fix that for tens of millions of transit riders across 
the country.
    MAP-21 also establishes the Nation's first federally 
funded, stand-alone program to repair and upgrade rail and bus 
transit systems throughout the United States.
    Last September, you joined Secretary LaHood and myself on a 
tour of the revitalized River Cities Transit Facility, a great 
project that highlights the value of reinvesting to bring our 
systems into a state of good repair and meet the needs of 
future generations. And in order to fulfill the President's 
goals to reinvest in America on projects that not just create 
jobs but also improve our quality of life for generations to 
come, MAP-21 placed renewed emphasis on the successful Buy 
America program. Buy America helps ensure that every Federal 
transit dollar is spent right here at home, putting more 
Americans to work as we revitalize domestic manufacturing and 
promote American ingenuity, making the transportation systems 
an American-made solution for American citizens with American 
tax dollars. Since the Obama administration has taken office, 
the number of waivers that we have granted to the Buy America 
law has been reduced from more than 40 to 3.
    So, in closing, Mr. Chairman, MAP-21 offers an opportunity 
for us to work together to strengthen our transit systems 
across the board. We at the FTA look forward to working with 
you as Chairman of the Banking Committee on the next version of 
MAP-21. The law already expires at the end of 2014. We know 
that the Committee is beginning to gear up for thinking about 
what the next law needs to look like. And let me just say 
parenthetically, while we understand your recent decision 
regarding your career, I think I speak for everyone across all 
of public transportation across the entire country, expressing 
our understanding but disappointment. All of public 
transportation intends to work really hard for your last 2 
years and get a reauthorization done before you retire.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Administrator Rogoff.
    Secretary Bergquist, please begin your testimony.

     STATEMENT OF DARIN BERGQUIST, SECRETARY, SOUTH DAKOTA 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Bergquist. Thank you and good afternoon, Mr. Chairman. 
I want to thank you for the opportunity to speak before the 
Committee today and to share some of our thoughts on Federal 
investment in transportation in a rural State like South 
Dakota. First I will comment on the impact of MAP-21 in South 
Dakota and then address potential future transportation 
legislation.
    Mr. Chairman, our overall view of MAP-21 is positive. As 
the Committee Chair, you had a key role in developing the 
legislation, and we appreciate your efforts and the efforts of 
all the South Dakota congressional delegation on passage of 
this law. I would like to outline for you briefly why we have 
such a positive view of MAP-21.
    First of all, South Dakota's highway formula share was 
preserved. With our State's long stretches of rural highway and 
with few people to support that extensive road network, our 
State has always received a higher share of Federal highway 
funding than its share of contributions to the Highway Trust 
Fund. MAP-21 maintained that higher share. This formula share 
is correct on its merits, but we do not take it for granted. It 
is an outcome you and others in our delegation worked hard to 
achieve and preserve.
    It was also important that South Dakota received an 
increase in transit formula funding under MAP-21, as you 
referenced, Mr. Chairman. As the Committee you chair has 
jurisdiction over the transit program, we want to personally 
thank you for your work to increase transit funding for South 
Dakota, other rural States, and our tribes. Increased transit 
funding will help transit providers meet the needs of senior 
citizens, people with disabilities, and others in South Dakota.
    MAP-21 also provided some program stability. Until MAP-21 
became law, the South Dakota DOT operated under transportation 
program extensions of just a few months. That created 
administrative, planning, and funding challenges. MAP-21 
provided stability by providing a 2-year program while 
maintaining the funding level of South Dakota's highway program 
and by improving our State's transit funding. During the MAP-21 
debate, some in Congress proposed significant reductions in 
transportation funding. We are certainly glad that did not 
occur.
    We are also pleased that MAP-21 requires steps to expedite 
or simplify the environmental review process for projects. Yet 
at the same time, MAP-21's provisions impose some new 
requirements. We hope these new provisions will be implemented 
in a nonburdensome way.
    For example, Congress directed USDOT to develop performance 
measures linked to State performance targets. These performance 
management tasks could require considerable effort, especially 
if USDOT is too prescriptive in development of the measures. We 
hope these new requirements can be minimized.
    Safety is always a priority for us, yet we hope MAP-21's 
transit safety plan requirements will be properly scaled. Part 
of the impetus for MAP-21 transit safety provisions resulted 
from a tragic multiple-fatality crash on the Washington, DC, 
transit system. In South Dakota, the one fatal accident 
involving a transit vehicle in the last several years was 
caused by a nontransit vehicle. We have a very good transit 
safety record in South Dakota, so new regulations should not 
impose complex requirements on our small transit systems and 
providers that are more appropriate for metropolitan agencies.
    We had the opportunity this morning--and Administrator 
Rogoff was gracious enough to spend some time this morning with 
our local providers--discussing these very issues. I was very 
encouraged by the discussion that we had this morning and the 
thoughts and comments of the Administrator in regards to these 
issues. I am very optimistic, and I think that we can meet the 
requirements of MAP-21 in the safety area while not developing 
a program that is burdensome on our local transit providers.
    I would also like to offer a few perspectives on the long-
term interests of South Dakota in the Federal Surface 
Transportation Program. MAP-21 funding authorizations extend 
only through September 30, 2014, which is not far in the 
future. The potential for the Highway Trust Fund to run out of 
money in the second half of 2014 and the uncertainty that 
creates are cause for serious concern. If maintaining the 
current transportation funding levels remains uncertain, DOTs 
and contractors will take a cautious approach in letting 
projects, hiring crews, and making equipment purchases. That 
would mean fewer construction jobs and less support for people 
in businesses using transportation. That is why it is so 
important that, following the expiration of MAP-21, we do not 
go through another period of multiple short-term extensions 
like what was experienced following SAFETEA-LU and, as a 
result, I join Administrator Rogoff and we are also hopeful 
here in South Dakota that we can see passage of a new Federal 
transportation bill before your time in Congress is done.
    Finally, I want to emphasize why significant Federal 
investment in highways in a rural State like South Dakota is in 
the national interest. Rural highways serve as a bridge for 
interstate truck and personal travel between States and through 
South Dakota. They support agricultural exports and serve the 
Nation's ethanol production, energy extraction, and wind power 
industries, all located largely in rural areas. They connect to 
scenic wonders like Badlands National Park, Mount Rushmore, and 
Yellowstone National Park, and they are a lifeline for remote 
and economically challenged citizens such as those living on 
tribal reservations. Also, Federal transportation programs 
create jobs, support economic efficiency and growth, and 
enhance safety.
    South Dakota has few people to support each mile of Federal 
aid highway. Preserving this aging, nationally connected system 
is expensive and remains a challenge. So far, Congress has 
recognized the national interest in highways in and across 
rural States. We hope that will continue.
    Also, Federal investment must continue in public 
transportation in rural States like South Dakota. To help us 
meet current and future demand, operating as well as capital 
costs should remain eligible uses for the Federal transit 
program. Federal investment in rural transit helps ensure 
personal mobility, especially for senior citizens and people 
with disabilities, connecting them to medical appointments, 
other necessary services, and employment.
    In addition, rural transit helps sustain, as you mentioned, 
Mr. Chairman, over 500 jobs across South Dakota. It allows 
children to access school and other education opportunities 
while their parents remain at work, adding to household 
productivity and earning potential while supporting families.
    And I would like, Mr. Chairman, just to share with you one 
example of a success story in public transit in South Dakota 
and how it is impacting people. I received a letter yesterday 
from Officer Richard Bauman, who is a school resource officer 
at Riggs High School, in Pierre, and Ms. Tynell Kocer, who is 
the Native American liaison at Riggs High School. In Pierre, we 
have a program where private funding using public transit 
services provides rides to schools for some underprivileged 
kids who may need to walk a significantly long distance of a 
mile or more to get to school. Oftentimes, in the winter months 
in particular, they were not getting to school at all. They 
attribute the increase in graduation rates to the availability 
of this program. I would like to quote from their letter.
    ``For the 2011-12 school year, the graduation rate of 
Native American students who started the school year at T.F. 
Riggs High School and graduated was 56 percent. The anticipated 
graduation rate for the 2012-13 school year for Native American 
Students who started the school year at Riggs is 81 to 86 
percent.''
    Mr. Chairman, this is just one example of the way that 
public transit services are benefiting the people of South 
Dakota.
    But providing transit services in a low-population-density 
State like ours meant meeting special challenges. Small buses 
or vans usually provide rural transit service. Frequently, it 
is on-demand service for the elderly or disabled, such as 
nonemergency trips to the hospital or pharmacy. In very low 
population density States, a one-way trip to a medical facility 
for one or two riders can be 50 miles or more. But this helps 
citizens stay in their homes, avoiding more expensive care.
    In conclusion, Mr. Chairman, Federal surface transportation 
programs and legislation must continue to recognize the 
national interest in providing significant Federal investment 
in highways and transit in rural States like South Dakota. That 
recognition, combined with fewer program requirements and 
rules, will allow the South Dakota DOT and our local transit 
providers to address the transportation needs of South Dakota 
and the Nation.
    That concludes my testimony, Mr. Chairman, and I would be 
happy to answer any questions you may have.
    Chairman Johnson. Thank you both for your testimony. I 
appreciate the fact that--it is commendable that the rural 
transit program in Pierre works closely with the tribes in 
Pierre, Lower Brule especially, and I find that the 
coordination is difficult, but it is well worth doing.
    I now have some questions for each of you. Mr. Rogoff, you 
have served as FTA's Administrator for nearly 4 years, How has 
your service as Administrator shaped your view on the Federal 
role in public transportation in large rural States like South 
Dakota compared to other areas?
    Mr. Rogoff. Well, Mr. Chairman, in my period as 
Administrator, it has become increasingly apparent to us that--
we have an expression at the FTA that I use with increasing 
frequency, and that is, ``If you have seen one transit agency, 
you have seen one transit agency,'' because no two of them are 
the same, no two face the same clientele, the same governance 
structure, the same financing. And even between groups of 
transit agencies, there is very little commonality between the 
great challenges of a New York City MTA or a BART in San 
Francisco versus the challenges that we face here in South 
Dakota. And that is what makes it imperative that we tailor our 
programs to meet local needs, to meet the unique needs that the 
localities have.
    I think MAP-21 goes a long way toward doing that in the 
law, and now it is the FTA's challenge as we implement your law 
to make sure that we do it in terms of the regulatory burden 
and the rules that come with your new programs.
    So, for example, we were just meeting this morning with 
many of the transit providers in the State. There are important 
new authorities in the law about how we maximize the use of the 
dollars. I gathered a lot of good and important notes that are 
now informed by the details of the MAP-21 law to bring back to 
Washington, DC, to the regulation writers to make sure that we 
do not think that we can develop a one-size-fits-all approach 
that will work as well for the tribes in South Dakota as it 
will for the large urban providers. They have different 
challenges, and they need to have different ways of fulfilling 
the responsibilities of that law, because in the end our goal 
is not just about bureaucracy and rules. Our goal has to be 
about providing the maximum amount of service to the public 
that the tax dollars will allow. And that is what we have--that 
is what has really been driving us for the last few years, is 
retooling our programs to get the maximum service to the 
citizen, not the maximum amount of bureaucratic process.
    Chairman Johnson. Secretary Bergquist, thank you for 
joining us. Your testimony highlighted how large rural States 
have unique transportation needs for highways and transit. Can 
you talk about the economic importance of transportation 
investment in South Dakota and describe further why having 
long-term guaranteed Federal funding is important?
    Mr. Bergquist. Thank you for the question, Mr. Chairman. I 
will try to answer that in two different parts.
    In terms of the economic importance of transportation in 
South Dakota, I think we all understand that a good 
transportation network is a foundation for State economic 
growth and personal mobility in South Dakota. As an example, 
goods must be able to move from farm to market and across and 
through the State, including to grain elevators and rail 
transfer points. That is essential to our State being 
competitive in the national and world economy.
    I think we have seen examples here in Sioux Falls of just 
how transportation investment can drive economic development. 
Just two examples: the newly constructed interchange at I-90 
and Marion Road. We know that development is planned to occur 
there in the very near future as a result of that. We have 
completed portions of South Dakota 100 on the east side of 
Sioux Falls. We have seen tremendous economic development along 
those sections of the road that have been completed.
    Many businesses are looking at the possibility of coming to 
South Dakota. They often cite that the availability of a good 
transportation network and system is one of the top priorities 
that they are considering when they look at a potential site. 
So all those things indicate how important highway and 
transportation investment is for South Dakota's economy.
    As to public transit, it ensures personal mobility for 
those that may not be able to drive personal vehicles, whether 
due to age, infirmity, or lack of funds. These people are an 
important part of our economy and our society. They have to be 
able to get to work. They have to get to hospitals. They have 
to get to jobs, schools, and other important destinations. So 
continued investment in public transit in South Dakota is also 
vitally important to our economy.
    As to the second part of your question, Mr. Chairman, as to 
the importance of guarantees, we will gladly take any long-term 
Federal transportation funding guarantees that we can get. But 
I want to be clear in making that point. As important as the 
long-term guarantees are to us, it is really the substance of 
the bill that is more important. Our formula share of the level 
of funding in the bill is really key. All things being equal, 
we would not want to get locked into a long-term bill that is 
detrimental to South Dakota. A favorable bill and the longer 
the term, the better for us in terms of our planning efforts. 
It helps us. It helps us plan projects into the future. It 
helps our contractors prepare for projects that are coming, 
whether that be purchasing equipment, hiring more crews, those 
type of things.
    So, we are very glad to see the MAP-21 programs are largely 
not subject to reduction under sequestration. We would like to 
see continued protection of that transportation funding and a 
program authorization of more than 2 years in the future.
    Chairman Johnson. Mr. Rogoff, trips in tribal transit more 
than doubled under SAFETEA-LU, and MAP-21's formula will 
provide guaranteed funds for tribes. What challenges, if any, 
do you foresee in continuing this program's success? Also, how 
is FTA working to ensure that all eligible tribal miles are 
being counted in the new formula?
    Mr. Rogoff. Well, as you pointed out, tribal transit trips 
have grown, but largely due to your leadership, Mr. Chairman, 
the total funding for tribal transit under MAP-21 has doubled 
for the next 2 years, and that is very good news. But it made 
some important structural changes on how the program works.
    Under the SAFETEA-LU period, the tribal transit program was 
distributed as discretionary grants where applications were 
sent to FTA and we were able to evaluate the strength of those 
applications. That was at a $15 million a year level. MAP-21 
boosted it to a $30 million a year level, but $25 million of 
that will now go out by formula. And as you said, it will 
provide a predictable stream of funding to these tribes.
    I think there are a few challenges that come with that. 
Some tribes have a great deal more technical capacity to launch 
and run a transit program than others, and some of them are 
going to need considerable assistance from the FTA or from 
their neighboring transit providers to be able to stand up a 
good, sustainable program that serves the tribal community 
well.
    I am also concerned that, as the formula spins out the 
formula grants, certain tribes, especially those that have not 
participated in the past, might get amounts that are so small 
as to not let them really make meaningful progress in a short 
period of time. But we are going to work to make this money 
have, like everything else, the maximum impact for the maximum 
number of tribal members in the most successful way.
    You asked about tribal mileage. The mileage that was 
reported in the past by the tribes was not so important because 
the funds were not going out by formula. Now that we do have a 
formula that is in part driven by mileage, making sure that 
data is reported and reported accurately is going to be a 
higher priority because it is going to drive the funding. And 
we will be working with the tribes to make sure that that 
works.
    Chairman Johnson. How do you do that?
    Mr. Rogoff. Well, first and foremost, you need to make sure 
that the data is reported through what is called the National 
Transit Data base. We need to make sure that the tribes that 
want to participate are fully integrated in it and know how to 
report their mileage. Here, again, it is about technical 
assistance. It is about getting assistance from neighboring 
transit providers in the area.
    It is a hard one, I will tell you. For the size of the 
grants and the amount of money that we have put out in the 
past, the folks in FTA regional offices will tell you that they 
have to put a great deal more technical assistance into getting 
some of the tribal grants to work because it is a whole new 
ball game to some of these tribes.
    That said, the service is critically important in many of 
these tribes. You have people who are isolated from work, 
isolated from medical care, who are absolutely dependent on 
services like this to get to medical appointments, to get to 
training, to get to education, to get to jobs. So we will 
double our efforts consistent with the doubling of your funding 
to make sure it is a successful program.
    Chairman Johnson. Secretary Bergquist, I am sure you are 
following USDOT's implementation of MAP-21 closely. In terms of 
freight, can you elaborate on how USDOT should address the 
transportation of agricultural goods as MAP-21 is implemented? 
And for transit, as FTA implements new requirements for asset 
management, how far along is the State in monitoring the 
condition of South Dakota's transit fleet?
    Mr. Bergquist. Thank you, Mr. Chairman. You are correct in 
that we are very interested in monitoring USDOT's 
implementation of designating a national freight network. At 
this point, the MAP-21 legislation does not provide any funding 
advantages for roads that are placed on that network, but 
certainly is conceivable that it could change in the future, 
and that is why we are so interested in it.
    One of our big concerns is that high truck volumes will be 
the main criteria used by USDOT to designate that network, and 
there is no doubt there are high volumes of truck freight at 
ports in metropolitan areas, for example, but much of that is 
import cargo or local deliveries.
    In South Dakota, we think it is also important that our 
lower volume but equally important agricultural and resource 
shipments by truck, because they generate exports and reduce 
our trade deficit, receive equal weight in designation of a 
national freight system.
    We want to make sure that South Dakota's important 
contributions to the freight system are recognized as part of 
that network, particularly in the event that in future 
legislation there are any funding benefits associated with 
roads that are designated as part of the freight network.
    As to our transit fleet condition, for years the transit 
office at the South Dakota Department of Transportation has 
worked with all of our small transit providers in the State and 
also worked with the tribes that choose to do so, so that we 
file data with FTA's National Transit Data base that the 
Administrator referenced, and that data includes information 
regarding the age of the buses and the vans, which is some of 
the most critical information.
    Our issue with managing our fleet in South Dakota, Mr. 
Chairman, is finding resources to upgrade and buy more modern 
buses. Your work has helped, but we can certainly hope for 
more. We do not have a record keeping problem when it comes to 
transit assets in South Dakota. Our records are already telling 
us we need to update our fleet. We just need the resources to 
be able to do that.
    Chairman Johnson. Mr. Rogoff, what steps is FTA pursuing to 
ensure that the new requirements for safety and asset 
management are not burdensome on small agencies such as we have 
in South Dakota?
    Mr. Rogoff. Well, I think it is critically important, Mr. 
Chairman, to recognize that whenever we talk about transit 
safety, we first have to acknowledge that transit is a very 
safe mode of transportation. You are infinitely safer getting 
on a bus or a rail car than you are getting into your own 
personal vehicle under any circumstances. So our challenge as 
an agency, given the new safety authorities that we have been 
given under MAP-21, which the Administration sought, going back 
to 2009, is to make sure that we are adding value without 
adding a great deal of cost of bureaucratic burden.
    We believe that using a safety management system approach 
is the way to do that. It has been very successful in other 
agencies, and it is where we tailor the safety regime to the 
unique circumstances of the individual transit provider. So 
when we were focused on moving forward with the transit safety 
bill, we were very focused on rail crashes and fatal accidents 
involving Washington Metro, the T in Boston, the CTA in 
Chicago, the rail operator in Miami, trolley operators in San 
Francisco. It is certainly not accurate to say that our burning 
safety concerns involve small bus operators, such as those in 
your State.
    That said, we think there are ways--and I think when we 
start coming out with some of these products soon, we will put 
a good deal of the anxiety over this at ease--where we will be 
showing folks how to ask themselves the right questions, many 
of which they are already asking themselves. This will be about 
making sure that they put out safe trips every day, and 
thankfully, currently they are putting out safe trips every 
day.
    Chairman Johnson. Mr. Rogoff, the transit providers in 
South Dakota work hard to coordinate service with local, State, 
and Federal partners in order to provide high-quality service, 
particularly for seniors, vets, and persons with disabilities. 
I applaud FTA's work to assist these efforts and FTA's funding 
of mobility management projects. But barriers still exist at 
the Federal level. GAO suggests that further action by the 
Coordinating Council on Access and Mobility is needed.
    What do you think is the next step at the Federal level?
    Mr. Rogoff. Well, thank you for the question. As you know, 
Secretary LaHood chairs the Coordinating Council on Access and 
Mobility, and our focus in the first term was to get our 
Veterans Transportation Initiative up and running, following up 
on the First Lady and Dr. Biden's efforts to really make sure 
that we are doing the best by way of our returning veterans.
    Now, you make a very important point, Mr. Chairman, that in 
smaller and rural States where we have a great many clients 
spread out all over the State in need of mobility, coordination 
is key. The taxpayers are paying for transportation services 
through a variety of Federal programs, and we certainly should 
not be duplicating efforts. And even collectively we do not 
have enough resources to serve all that we need to serve, so 
coordination is key.
    You asked what the next step is. On my priority list, the 
next step is an important sit-down with the folks at the 
Department of Health and Human Services. The Medicaid program 
puts out billions of dollars annually for transportation. I 
think there is still a lot of upside opportunity for us to do 
better coordination with Medicaid where there are actually 
quite a lot of resources already going into transportation. We 
need to maximize the Federal dollar in terms of the number of 
clients we serve and the ability to serve them well.
    Chairman Johnson. Thank you both for your testimony today, 
and, Mr. Rogoff, thank you for traveling from Washington, DC, 
to Sioux Falls for this hearing. I would like to excuse you 
now.
    I would now like to call on the second panel. Will the 
second panel come forward?
    [Pause.]
    Chairman Johnson. Now I would like to introduce our 
witnesses.
    Ms. Cosette Fester is a Paratransit rider in Sioux Falls.
    Mr. Mike Cooper is the Director of Planning and Building 
Services for the city of Sioux Falls.
    Ms. Barb Cline is Executive Director of Prairie Hills 
Transit in Spearfish.
    Ms. Emma Featherman-Sam is the coordinator for Oglala Sioux 
Transit.
    Ms. Lynne Keller Forbes is Executive Director of the South 
Eastern Council of Governments.
    Last, Ms. Sarah Jennings is the South Dakota State Director 
for AARP.
    Ms. Fester, please begin your testimony.

STATEMENT OF COSETTE FESTER, SIOUX AREA METRO PARATRANSIT RIDER

    Ms. Fester. Sixteen years ago, I had never heard of 
Paratransit or even had a need to know about it. That all 
changed in January 1997 when we were in a car accident which 
severed my spine at T5. I was in the hospital for 6 months. I 
have rods holding up my back so I can sit up and also rods 
holding up my rib cage. Everyone in the hospital tried to get 
me to sign up for Medicaid and all the benefits, but my family 
said that I would be going back to work. At that time I was an 
insurance adjuster specializing in workers' compensation. My 
boss kept whispering in my ear that I would have a job waiting 
for me when I was ready to come back.
    In October, I started back part-time at first. My husband 
was driving me back and forth, but that got to be a tiresome 
job for both of us. My husband is older and has numerous health 
problems of his own. I am not sure how I got signed up for 
Paratransit, but my family called them and away I went. The 
first day I made my husband follow me all the way to work and 
back again. I cried all the way to work. My poor bus driver 
kept asking me if I was all right, and I kept on crying and 
shaking my head. On that day, I felt feelings of inadequacy and 
dependency. My feelings have greatly changed since that day.
    Paratransit has been my salvation. They pick me up at my 
door and drop me off at my door. I am unable to open the doors 
myself as I do not have the upper strength to do so. Also my 
wheelchair does not allow me to get up close enough to a door 
to open it by myself.
    I think back at what people did before we had these 
services. I am not a person that could just stay at home. I 
need the interaction of people. I need to be useful and kept 
busy. Before I went back to work, I sat home and cried and felt 
sorry for poor me. I felt a burden to my family and was unclear 
with what to do with my life. Paratransit is more than just a 
way for me to get to work. It is another way for me to contact 
and connect. I see so much good in the people that work there 
as well. I once had a bus driver who wrote a poem for me. My 
family and I cherish the words of this wise man, my Paratransit 
driver. He wrote about how I was defined by me and not my 
chair. The way I handle this life is not what matters most. I 
need to make the best of it, for I will walk in the Promised 
Land. So what you need to realize is that Paratransit means a 
whole lot more than transportation to its riders. It is key to 
our independence, and it enhances our self-worth through its 
people and its services. Without this service and the special 
people employed by our Government, I would be lost.
    God has put a lot of different people on this Earth. I used 
to consider myself average and just your average middle-class 
working woman. However, that tragedy that occurred that night 
in 1997 made me special--yes, with a disability but, most 
importantly, I am special because, unlike many others, I now 
see the good in so many people. I instantly recognize good will 
and civility in ways that most average Americans fail to 
recognize. I am very grateful for all of the good deeds that 
are provided continually by Paratransit.
    Chairman Johnson. Thank you, Ms. Fester. I personally 
appreciate the complications of such a simple thing as getting 
the door open.
    Ms. Lynne Forbes.

  STATEMENT OF LYNNE KELLER FORBES, EXECUTIVE DIRECTOR, SOUTH 
                 EASTERN COUNCIL OF GOVERNMENTS

    Ms. Forbes. Good afternoon. Thank you, Chairman Johnson, 
for the opportunity to highlight our views on the new Federal 
surface transportation law, MAP-21, and the transportation 
investments the law provides, especially for our Nation's small 
metropolitan and rural regions.
    My name is Lynne Keller Forbes, and I am the executive 
director of the South Eastern Council of Governments, which is 
headquartered here in Sioux Falls and serves six of the 
southeastern counties in the State. SECOG is also the fiscal 
agent of the Sioux Falls Metropolitan Planning Organization, 
which is the transportation planning organization for the Sioux 
Falls urbanized area.
    As the Committee examines the impacts of MAP-21 on public 
transportation and transportation investments in rural States 
like South Dakota, I respectfully submit the following 
observations:
    First, Mr. Chairman, it is important to note the benefits 
of the law having rejected efforts to change the population 
threshold for becoming and maintaining an MPO.
    If MAP-21 would have included a provision to increase the 
population threshold of MPOs to 200,000, as one of the draft 
bills proposed, the Rapid City, Sioux City, and Sioux Falls 
MPOs would have been three of the 220 of 385 MPOs potentially 
eliminated, leaving the State of South Dakota with zero MPOs.
    It is important to maintain MPOs in rural States like South 
Dakota to ensure the input of the citizens and local elected 
officials of small metropolitan areas are considered in the 
transportation planning process. The populations of the 
communities of the Sioux Falls MPO are increasing at record 
rates, and the borders of these communities are continually 
growing closer together. The cities of Brandon, Crooks, 
Harrisburg, and Tea currently have borders approximately 1 to 2 
miles away from the city of Sioux Falls' border. It is 
estimated that the borders of these four communities will meet 
Sioux Falls' border by 2035. The literal closeness of these 
communities only emphasizes the importance of a local 
transportation planning organization to ensure coordination 
amongst the communities, to ensure the needs of the region are 
met, and to ensure the voices of local citizens and the elected 
officials are heard during the transportation planning and 
programming process.
    The Sioux Falls MPO transportation planning budget has been 
just under $2 million for the past few years and has increased 
to over $3 million for 2013. The regionally significant 
activities accomplished with that funding include a 
transportation planning study of 41st Street and the I-29 
interchange to identify potential projects to improve traffic 
flow on one of the busiest streets and interchanges in the 
State. A similar study is also being completed by the MPO for 
26th Street and the I-229 interchange, an area that experiences 
significant traffic delays during the morning and evening 
commutes. In addition, a recent impressive collaboration by the 
Sioux Falls MPO communities resulted in the ``Sioux Falls MPO 
Multi-Use Trail Study'' to identify corridors to connect the 
trails of Brandon, Harrisburg, and Tea to Sioux Falls' 
extensive trail system. Once implemented, pedestrians and 
bicyclists will have a safe way to travel between the MPO 
communities. Transit activities completed by the MPO include a 
recently completed route study to improve the Sioux Falls 
transit system and plan for future needs of the system. A space 
needs study was also recently completed to plan for the 
expanded needs of the transit system's office and storage 
facility.
    Additionally, Mr. Chairman, the continued increase of 
Federal support for public transportation, as demonstrated by 
MAP-21, is essential for the economic growth of rural States 
like South Dakota and small metropolitan areas like Sioux 
Falls.
    In 2012, Sioux Area Metro, which is also known as SAM, the 
Sioux Falls public transit system, provided almost 1.2 million 
rides, which is a 3.1-percent increase from 2011. Additionally, 
SAM employs about 95 people and has an annual operating budget 
of around $3.5 million.
    With the previously mentioned growth that the Sioux Falls 
area has been experiencing, the transit service will need to be 
expanded to reach the new employment and residential areas in 
the community. The ``Transit System Analysis-Grid Network 
Alternatives'' study completed by the Sioux Falls MPO just last 
month concluded that an additional $1.2 million, or about one-
third of the current budget, would need to be added to SAM's 
annual operating budget for the extended transit service needed 
by year 2035. In addition, increased funding will be needed for 
capital costs such as additional buses and transfer centers and 
the expansion of the storage and office facilities. A recent 
space needs study completed by the MPO estimated that a $13 
million expansion of SAM's office, maintenance, and storage 
facility will be needed to meet transit needs.
    In closing, Mr. Chairman, we are encouraged by the support 
for transportation planning and public transportation that is 
demonstrated by MAP-21.
    As you have heard, the transportation planning funding and 
public transportation funding authorized by the transportation 
bills is effectively utilized in the Sioux Falls MPO and 
contributes significantly to the economy of the State of South 
Dakota. MAP-21 expires on September 30, 2014. As work begins on 
the next bill, sustained and increased support is needed to 
ensure coordinated transportation planning and programming 
activities among local citizens and elected officials are 
continued on a regional basis in rural States like South Dakota 
and to ensure the notable economic benefits of public 
transportation are not lost by our State.
    Thank you again, Mr. Chairman, for the opportunity to 
testify today. I would be pleased to answer any questions.
    Chairman Johnson. Thank you, Ms. Forbes.
    Ms. Featherman-Sam.

  STATEMENT OF EMMA FEATHERMAN-SAM, COORDINATOR, OGLALA SIOUX 
                            TRANSIT

    Ms. Featherman-Sam. Thank you. Euha chi cante wasteya nape 
ceyuspa pi. I give you a heartfelt handshake. Thank you. Thank 
you for inviting me to testify here before the Committee. I am 
honored.
    The people who have needed the most help with 
transportation have accepted tribal transit systems across 
Indian Country voraciously. Transportation on the Pine Ridge 
Indian Reservation via some type of vehicle is most often 
either unavailable or, if a vehicle is available, is not in the 
best working condition or the cost of operating the vehicle is 
prohibitive. The safe, reliable services of Oglala Sioux 
Transit have already provided a valuable addition to the 
quality-of-life factors for the many residents of the Pine 
Ridge Indian Reservation.
    Oglala Sioux Transit has been operating since February of 
2009. We have eight buses. We have three 22-passenger and five 
16-passenger. We have a 12,500 square foot facility that has 
been constructed with funds from Federal transit. We average 
right around 1,800 miles daily. We have seven routes across our 
2.7 million acre reservation. The seven routes go through 16 of 
the main villages in our reservation, and the stops--there are 
35 stops across our reservation that provide the general public 
with access to college courses, employment, medical 
appointments, business, and shopping services on the 
reservation.
    A lot of times, the stops are kind of out in the middle of 
nowhere, and I think since we are rural, we do not really think 
about ourselves as out in the middle of nowhere, but we do have 
five bus shelters that have been constructed and erected on our 
reservation at several of the more popular spots on the 
reservation.
    The transit program is comprised of 17 employees--a 
coordinator, office manager, maintenance support technician, 
dispatcher, 12 bus drivers, and a bus mechanic. We also take 
part in providing slots for TANF workers who provide the 
receptionist, filing, and cleaning for our facility.
    The Pine Ridge Reservation is comprised of approximately 
2.7 million acres. It encompasses three of the counties of 
South Dakota--Shannon, Bennett, and the southern half of 
Jackson. You know, we talk about low density in South Dakota. 
Shannon County has 6.5, Bennett 2.9, and Jackson 1.6 persons 
per square mile, and these are all counties that are based 
within the boundaries of the reservation. We have a population 
through the data from the different tribal programs of 47,000, 
of which 38,000 are enrolled tribal members. The 2010 census 
shows 20,048, which is a massive undercount, for our 
reservation. The Department of Housing and Urban Development's 
NAHASDA population number is 43,146, and that is still a little 
low. BIA Labor Force talks about our unemployment on our 
reservation at 89 percent. Persons below poverty levels on the 
reservation remain among the highest in the United States, with 
the 2009 census data indicating 51 percent for Shannon County, 
37.8 percent for Bennett County, and 31.6 percent for Jackson 
County. So, you know, we are dealing with a lot of really low-
income, poverty-level people here on our reservation as we try 
to provide transit services for them.
    We are right now at a point where for the last 4 years we 
have transported 27,703 passenger trips. You know, we are 
traveling 400--actually, 1,746,000 miles, and the number--that 
was just a number for the quarter--was 95,000 persons across 
the reservation.
    Tribal transits nationally, when we started back in fiscal 
year 2006, there were 63 tribes in fiscal year 2012, 72 tribes 
that have received tribal transit funds. With the new fiscal 
year 2013, there are 71 tribes in South Dakota; five of those 
tribes are receiving approximately $1.8 million.
    Let me see. MAP-21, the provisions have represented a 
significant improvement in the availability of resources that 
tribes may access to assist with their public transportation 
needs. We provided comment back in November for MAP-21 for the 
tribal transits.
    In closing, I would like to express my appreciation to you 
for holding this hearing here and allowing me to represent some 
of the tribal input into what is happening within the Federal 
Transit Administration to provide public transit services out 
in Indian country. Thank you for acknowledging the sovereignty 
of tribes by providing direct funding on a Government-to-
Government basis to those of us tribes that have accepted that. 
Congress, FTA, and Indian tribes can rightfully be proud of the 
accomplishments made to this State and look forward to a 
continued partnership for future gains.
    Chairman Johnson. Thank you, Emma.
    Ms. Cline.

  STATEMENT OF BARBARA K. CLINE, EXECUTIVE DIRECTOR, PRAIRIE 
             HILLS TRANSIT, SPEARFISH, SOUTH DAKOTA

    Ms. Cline. Senator Johnson, good afternoon. I am Barb 
Cline, the executive director of Prairie Hills Transit located 
in Spearfish, South Dakota. I direct a transit agency operating 
within a 12,000 square mile service area and like to think that 
I represent in large part many of the rural transit system 
operators that provide much needed services to an array of 
destination in rural and small town America daily.
    I would sincerely like to thank you and FTA Administrator 
Rogoff for supporting community and public transit. We 
appreciate the increased formula funding in MAP-21 and the 
ongoing dialog that you have permitted us.
    Today I would like to discuss how the new surface 
transportation law, MAP-21, is impacting rural transportation 
operators and their constituents.
    Prairie Hills Transit is a company that grew from a single 
``old'' green van that was not lift equipped and operated 4 
hours daily in Spearfish for seniors. A short 23 years later, 
our company operates and receives local support in 15 
communities located in 6 counties in the Black Hills of western 
South Dakota. With 38 vehicles, 50 employees, and a brand new 
transit facility, our growth has been solid and stable. With 
your help Prairie Hills Transit can continue to grow and meet 
the ever increasing transportation service requests.
    You asked that we let you know our feelings regarding the 
effect specific programs might have. Let me begin with the Bus 
and Bus Facilities Program. The program is much smaller than 
the version that existed under SAFETEA-LU. While the formula-
based bus funds are appreciated, ultimately that dollar amount 
does not begin to touch the replacement needs of Prairie Hills 
Transit or other agencies in our State. It is important for you 
to understand that many of these vehicles consistently drive 
100 to 200 miles daily for medical and employment.
    Of the 38 vehicles Prairie Hills Transit operates, 22 are 
2005 or older, and 17 of the 38 have 130,000 miles. A 
significant commitment in the investment must be made in coming 
years.
    The safety and security requirements of MAP-21 are of real 
concern. Both have been a long-standing commitment of Prairie 
Hills Transit and the Community Transportation Association of 
America even before MAP-21. We are currently pursuing a 3-year 
accreditation by CTAA that meets the Federal Transit 
Administration-endorsed standards. We would encourage that the 
State DOTs be allowed to use the National Transit Data base as 
a safety reporting mechanism rather than requiring each agency 
to either have a part-time or full-time safety officer.
    I believe that asset management plans could and should be 
managed by the State Department of Transportation. Guidance 
would make the State accountable for their sub-recipients, and 
this information could be entered into the National Transit 
Data base.
    Over a year ago, we entered into a discharge contract with 
the primary hospital in Rapid City to get their patients home. 
This is a partnership that has worked extremely well for both 
parties, and rather than sending their patients home in an 
ambulance because transportation was not available, we are 
providing that service. It takes out the ambulance service. 
They can stay and do what they need to do.
    Often these medical discharges require us to go long 
distances or even across State lines in doing that. So we feel 
that we are privilege a much needed service by working with the 
health care industry and doing that.
    Recent feedback from a spokesperson said that the 
satisfactory really appreciates the collaborative effort, but 
ultimately it is a win-win for the patients themselves.
    As a Medicaid provider, we help young families with 
children, individuals with disabilities, and a growing number 
or wheelchair-bound persons residing in residential living 
facilities, nursing homes, and assisted livings. The multitude 
of other services that we provide are listed in our written 
testimony, but they are significant and some are rather 
creative and innovative, we like to think.
    We must begin to place a definable value and measurable 
outcomes for our critical medical needs. We must continue to be 
innovative and diversify programs our transit systems already 
work with.
    Recently we took our youngest rider home, an 8-day-old 
baby, with his parents to their home about 150 miles away from 
Rapid City. The other end-of-life cycle is a 103-year-old lady 
in Edgemont that uses transportation to get to the senior meals 
program every day, and we think that is a great spread.
    In closing, I would like to tell you a story that has been 
very impactful for me. Just the other day, one of our drivers 
came to me and told me about a trip that he had taken, a 
gentleman going home from the hospital. And before he told me 
this story, he said, ``I want you to know I told him I would 
pray for him.'' He was taking this gentleman, who had just had 
his leg amputated, back to his home in Eagle Butte. The 
gentleman had been involved in a car accident where his 
granddaughter died in the seat next to him. His wife died the 
day before his discharge from complications of the accident. So 
if anybody ever says all we do is provide transportation, they 
are wrong. Public transportation provides the whole gamut of 
services, all the way from getting people to home to being a 
support mechanism when people have no one else to turn to.
    I personally take great pride in the compassion our drivers 
show every day and the humility it requires for us to make a 
difference to our counties, cities, and State. We need your 
help to fight the battle rural systems fight every day. Thank 
you so much.
    Chairman Johnson. Thank you, Ms. Cline.
    Mr. Cooper.

STATEMENT OF MICHAEL COOPER, DIRECTOR OF PLANNING AND BUILDING 
          SERVICES, CITY OF SIOUX FALLS, SOUTH DAKOTA

    Mr. Cooper. Thank you, Mr. Chairman, and on behalf of the 
city of Sioux Falls, thank you for hosting this hearing at our 
Carnegie Town Hall.
    I am Mike Cooper, Director of Planning and Building 
Services for the city of Sioux Falls. Sioux Falls is fortunate 
to have a high-quality public transportation system with our 
Sioux Area Metro. In addition to the fixed-route system that 
you have heard has now exceeded over 1 million riders for the 
first time, our Paratransit system continues to provide quality 
service for those who cannot ride the fixed-route system and 
provides now on average almost 600 riders per weekday.
    The total population growth of Sioux Falls during the last 
year exceeded 2,500 people and is projected to continue that 
rate well into the future. In order to ensure quality public 
transportation services, the city of Sioux Falls and Sioux Area 
Metro are planning for ways to maintain services to an 
expanding and increasingly diverse population base.
    As you have heard, in just the past year, the city of Sioux 
Falls and the Sioux Falls MPO have completed studies to provide 
a plan for the future of public transit service in Sioux Falls. 
These studies have included the Transit System Analysis as well 
as the Space Needs Study. Also, the city of Sioux Falls has 
recently initiated a Fare and Operations Analysis to determine 
some of the short-term and midterm changes that are required to 
implement recommendations from the Transit System Analysis.
    As a part of the Sioux Falls Route Analysis, three new 
routes and five expanded and/or modified fixed routes have been 
proposed to provide a higher level of service for the projected 
growth of Sioux Falls. As a part of this plan for expansion, 
Sioux Area Metro would need to add three new transfer stations 
to improve route connectivity. Also, the Route Analysis 
recommended adding cross-town routes to connect the new 
transfer centers and improve regional connectivity.
    This expansion would take place over the next 20 years and 
would create the need for 10 additional fixed-route buses and 
up to 18 additional Paratransit buses.
    But before the expansion of these new routes is possible, 
Sioux Area Metro needs a major expansion of our bus storage and 
office facility at 6th Street and Weber Avenue. And as you 
heard, the estimated cost of that is going to exceed in that 
range of $12 to $13 million. This expansion was detailed in the 
Sioux Area Metro Space Needs Study, which was completed last 
year. The Space Needs Study recommends that expansion of the 
bus storage and office facility is essential before any 
expansion of our transit system can take place. As I am sure 
you can appreciate, security, maintenance, and efficiency of 
the buses is dependent on good indoor storage for our bus 
fleet.
    Expanding transportation opportunities and enhancing the 
independence for people with disabilities is a high priority 
for Sioux Area Metro. As you have heard already, the 
Paratransit system is very successful in Sioux Falls and 
continues to be a very important piece of our overall 
transportation system. However, the fixed-route bus system is 
very efficient and also provides opportunities for greater 
transportation independence for all people within our 
community. All of our fixed-route buses are fully accessible, 
and bus stops throughout our service area continue to be 
improved to be accessible for people with disabilities. In 
fact, this year the city of Sioux Falls is looking at investing 
additional capital improvement money to upgrade 88 bus stops, 
and a proposal is currently being presented to the city council 
for authorization. The city of Sioux Falls will continue to 
find ways to improve the accessibility of our fixed-route 
system so all citizens have an opportunity for economical and 
quality transportation.
    In closing, the full funding of MAP-21 for public 
transportation and transportation investments is critical for 
the Sioux Falls region. We look forward to working with you, 
Senator Johnson, on providing more information about future 
needs for public transit as we move forward with MAP-21.
    Again, thank you on behalf of the city of Sioux Falls for 
this opportunity to update you on Sioux Area Metro and discuss 
our local community needs for quality public transportation.
    Chairman Johnson. Thank you, Mr. Cooper.
    Ms. Jennings.

 STATEMENT OF SARAH JENNINGS, STATE DIRECTOR, AARP SOUTH DAKOTA

    Ms. Jennings. Thank you, Mr. Chairman, and there is less 
wiggling going on in the room than I expected at this point 
when I am last, but I will try to be concise.
    But I want to first thank you and your staff for working 
with our national office team during MAP-21. I heard nothing 
but wonderful praise for how hard you worked to be really 
responsive to the needs of seniors as you thought through how 
you were going to reauthorize this legislation.
    I put a lot of specifics in my testimony about what AARP 
really is appreciative of regarding the formula changes and 
some of the policy changes that really we hope will enhance how 
planning works and will be even a more transparent way for 
folks to get involved in the process and to make sure in terms 
of coordination that that is really happening everywhere it 
needs to.
    I think now we are really looking forward at 
implementation, and we want to be a partner with you and with 
the Administrator on making sure that we take full advantages 
of the different policies that are now in place.
    You know, I think probably some people were surprised to 
see AARP on the witness list here, and this is an issue for us 
that we have worked on for a long time. It is an issue, as you 
have heard some of these stories here, that really is about--
you know, AARP's mission is to ensure that people can age with 
dignity and purpose, and that means something different to 
everybody, whether it is getting to their job because they are 
continuing to work or getting to a health care appointment 
because they need to, seeing a grandkid or getting over to the 
senior center to get a meal. I mean, all of that is critically 
important to folks being able to age as they want, and more and 
more we know people want to stay in their homes, and in our 
State, you know, whether it is in Sioux Falls where you have 
some options available to you which are really wonderful, but, 
you know, whether you are in the most rural part of our State, 
you should be able to live at home if that is something that 
you want to do.
    This is not a new issue, but we in AARP here in South 
Dakota are getting more involved now. I have to give a shout 
out to our State volunteer president, Dennis Eisnach, who has 
been someone who has talked about this issue for a long time. 
And I will be honest that for a while we could not figure out 
how AARP South Dakota could really meaningfully contribute to 
this discussion and hopefully kind of move the ball forward.
    I think between that and then hearing from volunteers and 
members and the public over the past couple years, more and 
more when I ask people in their community, whether it is in 
Rapid City or here in Sioux Falls or Hartford or up north in, 
you know, Aberdeen, people talk about transportation as 
something that they really are having challenges with, and it 
is not because our providers do not want to provide this 
service, because as you have heard here today and whenever I 
talk to folks, no one wants to say no. But it is just that the 
needs are great and the needs are growing greater all the time. 
And so we really want to get involved with that.
    You know, I referenced in my testimony that we had our 
National Policy Council out here last summer, and, again, that 
was largely due to Dennis Eisnach's tenacious advocating for 
folks that they really needed to come out and see what rural 
transportation is all about, because as we all know, when we 
live in South Dakota, there are a lot of folks on each coast 
who all they think about when they think of transit are subways 
and city buses. And, you know, we really opened some eyes, 
especially our folks from New Jersey and California when they 
came out here and got to see some of the services that Barb is 
providing. We took them to her facility. We were up in Pierre. 
We went through some of the tribal lands, and we started here 
in Sioux Falls. And we really were able to open eyes about what 
the face of rural transportation is, who these people are that 
need the services, and why it is so critically important.
    There is also just so much happening in our State right 
now, and as I said previously, our providers are so innovative 
here, and they all want to say yes. And I would also say there 
is a ton of volunteers out there that want to provide services. 
I was at a meeting with Project CAR before I came here today, 
and the services they provide here in Sioux Falls are really 
second to none. And they also talked a lot about it is beyond 
providing a ride. You know, this is helping ensure that we are 
helping people battle isolation and having that connection to 
the outside world, and it is critically important.
    So we are moving forward and hoping that--you know, we have 
the vision of someday here in South Dakota, we are a State 
where no matter you are in your State, you can pick up the 
phone, call a number, and get to where you need to go. And 
whether that is a health care appointment, whether that is to 
get groceries, whether that is to go see your grandchild, or 
whether that is to go see a movie, we think it is important. 
And we know that you are partner with wanting that, and I know 
everybody here at the table is, too. And that is something now 
that AARP South Dakota really wants to work on.
    We know it is not going to be easy, but it is something 
where we believe we can serve a role as a convener. We can 
certainly educate people, because I also hear that, you know, 
getting people to give up their car keys in South Dakota is not 
easy. But having folks, you know, convincing them that getting 
on a bus or accepting a ride from someone is a great thing to 
do, and, you know, in a lot of ways it actually enhances your 
independence, it does not hurt it.
    And so we look forward to working--and also just on the 
policy advocacy side, you know, we would love to work with you 
as you go forward, and I loved the idea of making your last 
year and a half really a busy one as we work to make sure that 
rural transportation--you know, you have been a champion, and 
we want to make sure that that continues. And we are on board 
with working you hard and your team hard until your very last 
day.
    So thanks for your leadership on this, and I would be happy 
to answer any questions, and I also look forward to working 
with you.
    Chairman Johnson. Thank you, Ms. Jennings.
    Ms. Fester, you mentioned how Paratransit is a critical 
link to you remaining in the workforce. Can you talk about the 
logistics of working with Sioux Area Metro to ensure that you 
get to and from work every day?
    Ms. Fester. They are very good at getting me to work on 
time and picking me up and taking me home. I have had very 
little problems, and if I do have, I just call them up, and 
they--we see what we can do.
    Chairman Johnson. I do not want to have you speak for the 
whole community of disabled, but commonly does Paratransit work 
for everybody?
    Ms. Fester. So the people I come in contact with, yes, I 
think they try their best. You know, I think they get people to 
where they can go. I do not know what you are looking for. Does 
everybody's needs get met? Is that what you are----
    Chairman Johnson. Across the board, is there general 
satisfaction with Paratransit in Sioux Falls?
    Ms. Fester. The drivers are wonderful. It takes a special 
person to be a driver of Paratransit.
    Chairman Johnson. Yes, good.
    Mr. Cooper, can you discuss how the city of Sioux Falls is 
preparing to meet the growing demand for Paratransit service 
and service for seniors in the community?
    Mr. Cooper. Sure. We are looking at a number of action 
steps. One is that we continue to look at ways that we can 
screen people that have a need for special transportation but 
are still able to utilize our fixed-route system. As I 
mentioned in my testimony, all of our fixed-route buses are ADA 
accessible, and we continue to make strides in making our stops 
ADA accessible. But there is no doubt that the use of our 
Paratransit is the main increase. We are seeing that increase 
by about 5 percent per year, and right now it consumes about 50 
percent of our transit budget in terms of operational costs 
while providing just under 15 percent of the ridership.
    So we want to make sure that people that need it are able 
to use it, but we also want to make sure that people that can 
utilize the fixed-route bus system are able to use that.
    Along with that, we want to continue to work with some of 
our local nonprofit agencies because a number of our 
Paratransit rides are going from housing to employment centers 
in support of local nonprofit agencies. And we are going to 
continue to look at ways that we can utilize services that they 
currently have or the facilities that we have to make our 
Paratransit ridership more efficient and expand the service for 
more riders that really need it into the future.
    Chairman Johnson. Ms. Cline, can you describe some of your 
efforts to coordinate with other agencies around Spearfish and 
provide one-call service to your riders? Also, how is the new 
facility functioning? That is a softball question.
    [Laughter.]
    Ms. Cline. You know, every day is a blessing with our new 
facility, Senator Johnson, and you were an integral part of 
helping us get that. But it is just an amazing place to work.
    We have a One-Call Center, which for every person that 
needs a ride with us--and we do demand response, which means 
every person that gets on our bus is either picked up from a 
pick-up location at a home, daycare center, maybe a school, a 
senior center. Everybody gets door-to-door service. So the 
transit facility itself, every call comes into our One-Call 
Center, our dispatch center. Every call then is taken by a 
personal voice. It is logged on to the computer, and then it 
goes out on a tablet. So our drivers actually are working with 
a tablet every day to know who gets picked up and who gets 
dropped off.
    As you may remember, in the new transit facility we have a 
licensed child care for 41 children. That is full. That is 
perfect. And so they are doing the same thing there. A lot of 
the parents that need to get their children to child care or 
from child care to school are using our service, as well as our 
employees who have access to the childcare center, which is 
8,000 square feet of the new transit facility.
    Chairman Johnson. Thank you.
    Ms. Featherman-Sam, all too often people in Indian country 
without access to a car find themselves walking along the 
highway for long distances. Has the transit system helped to 
improve the safety of travel on Pine Ridge?
    Ms. Featherman-Sam. We have a deviated fixed-route system 
on our reservation, and we have seen a lot less people 
hitchhiking across our roads.
    Chairman Johnson. Good.
    Ms. Featherman-Sam. A lot of times, when the weather is 
cold or if it is raining or snowing, we advise the bus drivers 
just to pick up a passenger and ask them, you know, ``If you 
have the fare, please pay the fare. If you do not, next time 
you get on, if you could throw an extra dollar or two in, we 
would appreciate it.''
    And so I think that for us on our reservation, because we--
the communities are kind of few and far between, but there are 
still homes between those little villages, and so a lot of the 
people come out to the main highway where our bus routes are 
and will flag a bus down to go someplace on a reservation.
    We also transport--you know, one of the problems that we 
have is we have a few people that still like to drink, and so, 
you know, we try to transport those persons, and we have not 
had any problems with transporting inebriated passengers, 
mainly because when they first get on--the bus drivers know 
just about everybody. I think anywhere in a rural area you know 
all your passengers by their first name. And so our bus drivers 
will inform them that they can get on, but if they pose any 
kind of problems, we call the public safety in, and they will 
take care of them. So we have just not had any problems with 
anybody. We do not have that many passengers, but, you know, we 
do allow them because we think that it is safer for them to be 
riding with us than trying to walk along the road or trying to 
get in a vehicle and drive.
    Chairman Johnson. OK. Ms. Forbes, how would SECOG 
transportation planning efforts change if the Federal 
Government's commitment to transportation investment faltered, 
especially if smaller metropolitan planning organizations were 
eliminated?
    Ms. Forbes. Sure. Obviously, everybody talks about working 
well together in coordination and all of those kinds of things. 
But coordination and planning cost money, and if that money or 
that financial incentive were to go away, it is going to get 
more difficult to bring people to the table to do that. And 
lots of the examples that I gave you earlier today are studies 
that need to be done. I believe that a lot of those studies 
probably particularly in the city of Sioux Falls, which has 
greater resources maybe than some of the outlying communities, 
some of those studies will probably still be done. But it may 
take some delays, and it certainly may not be as thorough a 
study as what we are able to do right now. But I do think it 
would certainly hinder the coordination and particularly some 
of the planning efforts that are going on in some of our 
bedroom communities that are still very important for the 
transportation in the city of Sioux Falls, but certainly do not 
have the resources probably to do as good a job on their own 
without the Federal funding through the MPO.
    Chairman Johnson. Ms. Jennings, AARP has stated transit 
options for seniors in South Dakota. Can you offer some 
additional examples of how better coordination of 
transportation services improves the travel of our seniors?
    Ms. Jennings. Sure. You know, I can think of a couple. The 
first I would look that up from my testimony is just--you know, 
when we had our National Policy Council here and we went to the 
hospitals and had conversations with them about, you know, how 
just the link between health care and transportation and how it 
is such an important one. Hearing the stories when we were at 
the Avera Cancer Center about how women who are traveling, you 
know, hundreds of miles to the center for treatment are 
choosing their treatment based on their transportation options, 
or lack thereof. And, you know, that to me was a really eye-
opening statistic, that here in South Dakota we have more women 
choosing to get a mastectomy simply because they cannot find 
the transportation or do not want to deal with it because it is 
much more complex than they feel like they can handle in their 
lives. So they are choosing to undergo a much more--they are 
choosing mastectomy over radiation, you know, not at the 
suggestion of their doctor but simply because the 
transportation options are not there.
    And that same example, I was, you know, really impressed 
with the staff team there because they have social workers 
working with all these patients to figure out what the 
transportation options are. But, again, it sort of, you know, 
kind of occurred to me that I am like these social workers 
should be, you know, working with the family to just get 
through the stressful time and spending more time on that and 
less time on figuring out how to coordinate a patient's 
transportation. Again, that is why you come back to if there 
was a place where these folks can call, the social worker can 
make one call, and we would all figure it out on the back end, 
and you would get those folks the care they need.
    You know, here in Sioux Falls, we are blessed with we do 
have a great system, but it does not meet every need, and you 
do have folks who, you know, are trying to get from Point A to 
Point B, and maybe they are not on a fixed-route, and so they 
do get to--you know, and we do have a lot of organizations here 
in town who will provide rides a lot with using volunteer 
drivers. But in some cases, you know, I have heard the stories 
of, ``Well, I did not quite qualify for that income 
guideline,'' or, you know, ``they stop driving at 4, and I 
needed to get there at 5.'' And there is just a lot of that 
kind of thing, which, again, I think that the desire is there 
to get everybody where they want to go, and I actually think 
the people, the vehicles, everything is there here in Sioux 
Falls, and we do have a Coordination Council here in Sioux 
Falls that we are trying to get our arms around all these 
issues as well.
    But, you know, as you know, it is messy, it is complicated, 
but, you know, I would give those as two examples here in the 
State--you know, one in our big city and I think one that 
really affects more of our rural residents, how if we had an 
even better coordinated system, we could really improve the 
lives of seniors.
    Chairman Johnson. Mr. Cooper, what do you consider to be 
the biggest challenge in maintaining and growing SAM transit 
services going forward?
    Mr. Cooper. I think the biggest challenge we have 
identified in some of our analysis over the last year is that 
because of the geographical expansion of our city, with 
employment centers, with affordable housing locations, and with 
a typically South Dakota kind of low-density population, even 
though we are a bigger city, that as the need or the request 
for those transit services come to us, in some cases it is 
difficult to justify adding a route or amending a route. But we 
are looking at that. We have identified some initiatives, as I 
testified, that we could look forward to. But it is based on 
funding ability in terms of our operation budget. We are going 
to continue to look at that locally, how we can accommodate 
that in the future by making our current routes more effective 
and possibly freeing up funding that we can use for expanded 
routes.
    But then, in addition, we are going to be needing those 
capital facilities involving the buses and the expansion of our 
bus facility. And, again, we are hoping that we can provide 
that through our Federal funding programs that are going to be 
available.
    Chairman Johnson. Ms. Cline, what is your biggest challenge 
in a moderate-sized town to maintaining and growing services at 
Prairie Hills?
    Ms. Cline. Not having enough time to do everything I want 
to do.
    Chairman Johnson. Yes.
    Ms. Cline. You know, I think with every challenge comes 
rewards, and we always are trying to do more. And as far as the 
coordination with that same piece, we keep trying to work with 
more and more agencies, more and more organizations, and 
oftentimes you need to wait until the leadership in a 
particular agency or organization changes. There is oftentimes 
a reluctance to put the people that we support on public 
transit buses or, you know, I do not want my child riding with 
Grandma and Grandpa.
    So sometimes the littlest things take the most effort and 
time, but all in all, I think, you know, every day is a great 
day; we are able to meet.
    Chairman Johnson. OK. Thank you.
    Ms. Featherman-Sam, what level of ridership do you predict 
in the coming years? And can you elaborate on the usage you 
have seen from younger users like students or younger workers?
    Ms. Featherman-Sam. Back in 2000, the 2000 census stated 
that 51 percent of the population on the Pine Ridge Indian 
Reservation was under the age of 16. So, you know, here we have 
a whole group of people that are now in their 20s, and, you 
know, I think in 2010, again, the population is even--or just 
as high as it was back in 2010 for those young people.
    We have a lot of students that ride our transit system, 
either just trying to get from one class to another, we 
transport college students because we have a decentralized 
college on our reservation, so there is a college center in 
nine of the different districts across the reservation. So we 
have a lot of those kinds of students, whether they are, you 
know, just out of high school, college students, or the older 
college students that use our transit system.
    I think that as we go through, probably our biggest 
challenge in trying to get people to use the transit system has 
been for them to learn how to use it. And now that it has been 
surprising that we have had elders over the age of 60, we 
have--27 percent of our riders are elders. And it is just 
surprising because they are the ones, I think, you know, just 
based on wanting to be independent, they just got out there and 
learned how to do the transfers from one route to another to 
get to different places. And, you know, they have really 
surprised us because they are just willing to do what they have 
to do to get to where they got to go.
    We have one lady who comes in from an area called 
Manderson. She comes in to Pine Ridge, and she goes to Martin, 
to her bank, and all this is in the morning. She comes in in 
the morning. And then she takes her check and gets her money, 
and she heads back out to the casino, and she comes back. And 
toward evening time, she catches that 4 o'clock bus back from 
the casino, and she is ready--back when they used to have bingo 
there in Pine Ridge, she was ready for bingo in the evening.
    So, you know, that is the elders that are out there, and 
they really surprised me at how much independence they have 
gotten from a transit system like this. And I think they are 
really influencing the younger people in using the transit 
system. Every birthday we have--and thank you for your letter 
on our birthday--we provide free rides all day long. And, you 
know, if we could get as many riders that we get on our 
birthday every day of the week, we would be really doing well. 
This year we had 306 passengers on that 1 day, and, of course, 
we had cake and ice cream and coffee. So I think that really 
drew them in.
    And, still, you know, the elders are there. They are always 
coming in and sitting in our lobby and talking to other 
passengers as they come through. So I think that is where, as 
we teach more and more people how to use transit, we will be 
getting more and more passengers.
    Chairman Johnson. Mr. Rogoff, do you have any closing 
comments or responses to give?
    Mr. Rogoff. Well, thanks for the opportunity, Mr. Chairman. 
I think what I have been hearing here is the services that we 
have, the services that the current funding streams can afford, 
are being deployed in an efficient way and people are thinking 
about getting more bang for the dollar, more passengers served 
for the available dollars. But what I have also heard is how 
much upside potential there is.
    And when you look at some of the demographics specifically 
for South Dakota, Ms. Featherman-Sam talked about the elders on 
the reservation, but it is also true that the elderly 
population of South Dakota is expected to grow from about 
something 15 to 16 percent now to almost 24 percent in the next 
few years, and demand is only going to go up. And in order for 
those people to have the maximum beneficial quality of life at 
the least expense to the taxpayer, letting them be at home and 
having transit services that enable them to be at home is going 
to be critical. So that I think is probably the next big agenda 
item for MAP-22 or whatever we are going to call it.
    Thank you.
    Chairman Johnson. Thank you.
    I would like to thank all of our witnesses for being here 
today. This hearing is adjourned.
    [Whereupon, at 3:36 p.m., the hearing was adjourned.]
    [Prepared statements supplied for the record follow:]
                 PREPARED STATEMENT OF PETER M. ROGOFF
     Administrator, Federal Transit Administration, Department of 
                             Transportation
                             March 28, 2013
    Thank you, Chairman Johnson, for the opportunity to appear before 
you today to discuss how we can work together to improve access to good 
transportation choices in rural areas, tribal lands, and urbanized 
centers, including Sioux Falls and communities across South Dakota.
    The Administration recognizes that public transportation in rural 
areas functions not as a luxury but as a lifeline for low-income 
working families, seniors, veterans, individuals with disabilities, 
tribal residents, and others. Many people living in rural and tribal 
communities can ill-afford to travel considerable distances to work and 
other destinations. It is not surprising that, given these constraints, 
demand for public transportation in these areas has been rising over 
the last 4 years. Between 2008 and 2012, the number of rural transit 
operators in the United States grew by nearly 6 percent, and 10 percent 
more trips are being provided, totaling 142 million trips last year.
    The Department's Federal Transit Administration (FTA) anticipates 
that demand for rural service will continue to rise, and we need 
legislative and policy solutions to deliver the transportation 
solutions that rural America needs. On July 6, 2012, President Obama 
signed the Moving Ahead for Progress in the 21st Century Act (MAP-21) 
into law, reauthorizing public transportation and other surface 
transportation programs through fiscal year (FY) 2014. MAP-21 enables 
us to implement many bold new policies to strengthen and streamline 
public transportation, including, importantly, bringing an additional 
$1.2 billion to rural communities and Indian reservations over the next 
2 years.
    I want to thank you, Mr. Chairman, for supporting the passage of 
MAP-21. You, together with other Members of the Senate Committee on 
Banking, Housing, and Urban Affairs, worked toward bipartisan and 
bicameral agreement on this very important transportation bill because 
you understood that its enactment would improve access to public 
transportation and create and support jobs at a time when we need them 
most.
MAP-21
    Enactment of MAP-21 signals an opportunity for us to work 
collectively to strengthen our transit systems and better serve the 
American public. MAP-21, which took effect on October 1, 2012, 
authorizes $10.6 billion in FY2013 and $10.7 billion in FY2014 for 
public transportation. The law furthers several important goals in the 
crucial areas of safety, state of good repair, emergency relief, 
program streamlining, and program efficiency.
    FTA has made a significant start toward implementation of MAP-21 
within the law's first 6 months by applying key provisions and 
providing guidance to States, metropolitan planning organizations, 
transit agencies, including rural providers, and Indian tribes. We have 
an active and engaged legislative implementation team and an aggressive 
timetable in place.
    More specifically, FTA has published considerable information on 
its Web site that, among other things, address MAP-21 programs relevant 
to public transportation providers in small urbanized areas, rural 
areas and tribal lands. On October 16, 2012, we published in the 
Federal Register, a ``Notice of FTA Transit Program Changes, Authorized 
Funding Levels and Implementation of the Moving Ahead for Progress in 
the 21st Century Act (MAP-21) and FTA Fiscal Year Apportionments, 
Allocations, Program Information and Interim Guidance''. On November 9, 
2012, we published a Federal Register Notice regarding the FY2013 
Public Transportation on Indian Reservations Program and we are 
currently considering comments received from interested parties. FTA is 
also working to implement MAP-21 through regulation where necessary and 
by updating guidance through its circulars. FTA anticipates that it 
will have updated the circular for the enhanced mobility of seniors and 
individuals with disabilities as well as the rural area formula grants 
circular during this fiscal year.
    I would like to highlight the MAP-21 changes that will benefit the 
rural areas and tribal lands like those in South Dakota, as well as 
urban centers such as Sioux Falls and Rapid City.
Formula Grants for Rural Areas (Section 5311)
    MAP-21 increases rural area formula funds by 29 percent, from $465 
million to $600 million. (By comparison, under MAP-21, urbanized area 
formula funds increased by 6 percent.) Funding increased for rural 
areas because we recognize that public transportation in these areas is 
urgently needed, especially for residents who do not have access to 
personal vehicles. Public transportation is important for providing 
links between workers and rural area employers, and encouraging rural 
economic development. Further, public transportation in rural areas can 
provide links to urban areas and provide access to opportunities found 
in those areas.
    As in prior authorizations, such as Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
the Formula Grants for Rural Areas program continues to provide capital 
and operating assistance to support public transportation in rural 
areas, defined as areas with fewer than 50,000 residents, and on tribal 
lands. In addition, MAP-21 now allows these program funds to be used 
for planning activities, as well as for Job Access and Reverse Commute 
program activities (JARC) for low-income individuals. Consolidating 
JARC activities into the Rural Areas Formula program provides more 
funding flexibility at the local level. Funding for the rural program 
is based on a formula that uses land area, population, including the 
number of low-income individuals residing in rural areas, and the 
provision of transit service. MAP-21 provides total funding of $600 
million in FY2013 and $608 million in FY2014. Subject to 
appropriations, in FY2013, the State of South Dakota can expect to 
receive an apportionment of $5.9 million for transit service provided 
in rural areas and on tribal lands. This is 17 percent higher than the 
amount apportioned to the State under this program in the last fiscal 
year.
    A State may use up to 10 percent of the amount apportioned to it 
for purposes of administering the Rural Area Formula program and to 
provide technical assistance to rural and tribal grantees. Technical 
assistance includes project planning, program and management 
development, coordination of public transportation programs, and 
research the State considers appropriate to promote public 
transportation service.
    In addition, the Rural Transit Assistance Program (RTAP) provides 
funds for technical assistance, training, and related support services 
tailored to meet the needs of transit operators in rural areas and on 
tribal lands. The program is funded with a 2 percent takedown from the 
amount available to carry out the Rural Areas Formula program. From the 
amounts made available for RTAP, FTA may use up to 15 percent to carry 
out competitively selected projects of a national scope with the 
remaining balance allocated to the States. In addition to the eligible 
activities identified above, a State may use RTAP funds for special 
projects that support its planning program for rural areas and tribal 
lands. Similarly, a State may use its statewide planning funds to 
support or supplement the technical assistance program it provides 
through RTAP.
    South Dakota will have $149,934 available for RTAP purposes in 
FY2013, which is 37percent more than was available to the State for 
this program in FY2012.
Tribal Program
    The Administration understands that access to reliable, affordable 
transportation is a high priority for Indian Country. We want to ensure 
that every American Indian or Alaskan native who needs a ride to earn a 
paycheck, attend school, see the doctor, visit sacred places, or buy 
groceries has that opportunity. To that end, in December 2012, 
Secretary LaHood announced the American Indian and Alaska Native tribe 
projects that were competitively selected to receive $15.5 million in 
FTA's Tribal Transit Program funds. The Cheyenne River Sioux Tribe, one 
of 72 tribes selected to receive funds, was awarded $350,000 to 
continue to provide public transit service to the growing number of 
tribal members and the general public who use it to travel to 
employment, education, medical care and other services in Eagle Butte 
and surrounding rural areas.
    MAP-21 doubles the funds available for the Tribal Transit program 
from $15 million in FY2012 to $30 million in FY2013 and FY2014. Under 
MAP-21, $25 million of the $30 million available for the program is 
distributed by formula. The remaining $5 million is provided for a 
discretionary grant program, and we encourage Indian tribes to apply 
for this funding as well. This resource will improve tribal public 
transportation in South Dakota and many other tribal areas throughout 
the United States. Tribal Transit program funds may be awarded for 
capital, operating, planning, job access and reverse commute projects, 
and administrative assistance for rural and tribal public transit 
services and rural intercity bus service.
    MAP-21 States that Indian tribes providing public transportation 
shall be apportioned funds consistent with formula factors that include 
vehicle revenue miles and the number of low-income individuals residing 
on tribal lands. Funds apportioned pursuant to the formula will provide 
Indian tribes operating public transportation with a steady and 
predictable stream of funding. FTA has actively reached out to tribal 
and rural stakeholders to discuss the impact of proposed program 
changes and funding priorities and is currently considering comments 
before finalizing a formula allocation methodology. However, based on 
an illustrative formula, South Dakota tribes are to receive 
approximately $1.9 million in formula funds for FY2013 compared to 
FY2012 when only $1.3 million in discretionary funds were available for 
allocation. This represents a 29 percent increase in funds to the South 
Dakota tribes in FY2013. MAP-21 also provided FTA with the authority to 
determine the terms and conditions of grant awards under Tribal Transit 
programs. As a result, FTA is also considering comments received from 
interested tribal officials and other stakeholders regarding grant 
requirements and building the technical capacity of tribal grantees. A 
Federal Register notice will be issued soon to provide program 
structure and guidance, final formula allocations, and terms and 
conditions for the formula and discretionary programs.
    In addition to the funds available to South Dakota residents and 
Cheyenne River Sioux Tribe for public transportation under MAP-21, the 
Department of Transportation (DOT) also awarded $1 million in National 
Infrastructure Investment funds to the Yankton Sioux Tribe in rural 
Marty to construct a new transit facility. The award was made through 
the fourth round of DOT's highly competitive Transportation Investment 
Generating Economic Recovery (TIGER) grant program. The facility will 
expand transportation options in this underserved and economically 
distressed Native American community. FTA will continue to work with 
Yankton tribal representative to ensure the successful completion of 
this project.
Formula Grants for the Enhanced Mobility of Seniors and Individuals 
        With Disabilities (Section 5310)
    The Enhanced Mobility of Seniors and Individuals with Disabilities 
program provides formula funding to increase the mobility of seniors 
and persons with disabilities. MAP-21 merges the former New Freedom 
program, which provided grants for services for individuals with 
disabilities that went above and beyond the requirements of the 
Americans with Disabilities Act (ADA), with this program. Enhanced 
Mobility program funds are apportioned based on each State's share of 
the respective target populations and are now apportioned to both 
States (for all areas under 200,000 in population) and large urbanized 
areas (with 200,000 or more in population). Projects selected for 
funding must be included in a locally developed, coordinated public 
transit-human services transportation plan; and the competitive 
selection process, which was required under the former New Freedom 
program, is now optional. At least 55 percent of program funds must be 
spent on capital public transportation projects planned, designed, and 
carried out to meet the access and functional needs of seniors and 
individuals with disabilities when public transportation is 
insufficient, inappropriate, or unavailable. The remaining funds may be 
used for public transportation projects that exceed the requirements of 
the ADA; public transportation projects that improve access to fixed-
route service and decrease reliance by individuals with disabilities on 
complementary paratransit (a comparable service to public 
transportation required by the ADA for individuals with disabilities 
who are unable to use fixed route transportation systems); or, 
alternatives to public transportation that assist seniors and 
individuals with disabilities.
    The State of South Dakota can expect to receive $624,500 in FY2013 
to carry out this program. This is 5.8 percent decrease in the amount 
of funds South Dakota received under the former Elderly Individuals and 
Individuals with Disabilities (E&D) program and New Freedom programs in 
FY2012. Under the former E&D program, each State was guaranteed a 
minimum of $125,000. This is not the case under the MAP-21 formula, 
which distributes 60 percent of the program funds to large urbanized 
areas (over 200,000 in population), 20 percent to small urbanized 
areas, and 20 percent to rural areas. South Dakota does not have any 
large urbanized areas.
Coordinated Transportation
    The South Eastern Council of Governments and City of Sioux Falls 
prepared the ``Sioux Falls MPO Area Coordinated Public Transit--Human 
Services Transportation Plan'' that was published on September 25, 
2008. The plan, which is to be updated every 5 years, acknowledges that 
the transportation stakeholders in the Sioux Falls MPO region ``have 
recognized the benefits of transportation coordination.'' Ten to 15 
years prior to the development of the plan, several agencies met to 
develop strategies for making transportation services more efficient. 
FTA applauds transportation entities that have long strived to serve 
seniors, individuals with disabilities, and low-income individuals in 
the Sioux Falls area. The plan also notes that transportation for these 
targeted populations is provided primarily within the city limits of 
Sioux Falls and, with minor exceptions, little transportation is 
available to the residents of the MPO region's less populated areas.
    Senior and medical transportation is vitally important to the 
Nation's growing senior population and citizens suffering debilitating 
illnesses and chronic diseases. In South Dakota, 14.6 percent of the 
population is 65 or older and this segment of the population is 
projected to grow to 23.1 percent by 2030. We need to support seniors 
who want to continue living in communities they call home. This 
requires human services policies and programs that work for the 
traveling public, including seniors, individuals with disabilities, and 
all those seeking medical care. Moreover, transportation services 
focused on these populations are often fragmented, underutilized, or 
difficult to navigate, and can be costly because of inconsistent, 
duplicative, and often restrictive Federal and State program rules and 
regulations. And, in some cases, narrowly focused programs leave 
service gaps and the available transportation services are simply not 
able to meet certain needs. We are working to determine how best to 
integrate the full range of mobility needs, which include ADA 
paratransit, transportation for seniors, and medical transport 
programs, with public transportation operations and plans. This means 
focusing on the customer and coordinating the best solutions with 
public and private operators and volunteer programs in the mix, was 
well as coordinating with other Federal agencies that fund 
transportation for these targeted populations.
    MAP-21 continues the requirement that, to the maximum extent 
feasible, FTA should coordinate activities funded under the Enhanced 
Mobility program with similar transportation activities provided by 
other Federal agencies. In addition, and as recommended by United 
States Government Accountability Office last summer, the Federal 
Interagency Coordinating Council on Access and Mobility (CCAM), chaired 
by the Secretary of Transportation and including representatives from 
11 Federal agencies, has developed a Strategic Action Plan to promote 
human services programs. The CCAM Strategic Plan builds on our progress 
to cooperatively improve mobility and community accessibility for 
seniors, individuals with disabilities, and low income persons and 
families. The Plan encourages the creation and growth of coordinated 
transportation networks that provide simplified access to health and 
wellness, jobs, and community services. One of the objectives of the 
Plan is to improve the health outcomes of Americans by enhancing 
transportation service coordination to improve access to health and 
wellness resources and reduce risks of institutionalization. Another 
objective is to stimulate local business, economic and transportation 
organizational partnerships to help dislocated workers and others 
seeking to rejoin the workforce get the transportation options they 
need to reach job opportunities and training. The CCAM centerpiece is 
the Veterans Transportation and Community Living Initiative, which 
complements the Obama Administration's Joining Forces initiative led by 
First Lady Michelle Obama and Dr. Jill Biden. It addresses the 
Administration's challenge to all Federal agencies to harness program 
resources and expertise to improve the quality of military family life 
and to help communities more effectively support military families. The 
Veterans Transportation and Community Living Initiative is an 
innovative, federally coordinated partnership that will make it easier 
for U.S. veterans, active service members, military families, and 
others with disabilities to learn about and arrange for locally 
available transportation services that connect them with work, 
education, health care, and other vital services in their communities. 
Through this initiative, FTA has made $63.6 million in discretionary 
funds available to local governmental agencies to finance the capital 
costs of implementing, expanding, or increasing access to, and 
coordination of, local transportation resources. Of this amount, South 
Dakota received approximately $1.2 million over the last 3 years.
    Meeting these objectives will help to ensure that the needs of 
disadvantaged individuals are addressed in current and future Federal 
programs. In furtherance of this goal, the Department and its partners 
at the U.S. Departments of Health and Human Services, Labor, and 
Education support a range of technical assistance initiatives for 
coordinating human service transportation. Programs and centers are 
charged with providing training, resources, and direct assistance to 
communities and States interested in enhancing the mobility and 
transportation options for all citizens, including older adults, 
individuals with disabilities, and people with lower incomes.
    FTA will continue to work through interagency partnerships to 
coordinate transportation needs to help increase the quality of life 
for older citizens, individuals with disabilities, and people with low 
incomes.
Grantee Safety Plans (Section 5329)
    Secretary LaHood has stated that ``safety is our highest priority 
and we are committed to keeping transit one of the safest modes of 
transportation in the Nation.'' FTA is pleased that MAP-21 includes 
important safety provisions for rail and bus-only operators, and 
requires all recipients of FTA funding to develop agency safety plans. 
FTA will work to adapt its comprehensive safety approach to all modes 
of public transportation within its safety authority. Specifically, we 
will work to ensure that the bus segment of public transportation, upon 
which millions of riders depend every day, receives the resources, 
tools and technical assistance it too will need to ensure the safety of 
the riding public. Also, because we recognize that one size does not 
fit for all transit operators, the safety plan for rural recipients and 
small public transportation providers or systems may be drafted or 
certified by the State.
    FTA looks forward to implementing the new safety law in 
consultation with the transit industry and our Transit Rail Advisory 
Committee for Safety (TRACS), which has been working to help guide this 
effort since September 2010.
State of Good Repair Grants (Section 5337)
    The Administration supports a groundbreaking commitment not only to 
expand transit options for Americans, but just as importantly, to 
maintain the Nation's transit systems in a state of good repair. For 
example, last September, Secretary LaHood and I, together with State 
and local officials, toured a significantly modernized and expanded 
River Cities Transit Facility, constructed in part with a $5 million 
grant from FTA. River Cities Transit ridership grew more than six-fold 
between 2008 and 2012, making the upgrades to the system more important 
than ever before. This system has a service radius of 100 miles, and 
that means a service area of bus and transit vans covering more than 
31,000 square miles, serving people living in 11 counties in central 
South Dakota, including seniors, people with disabilities, veterans and 
the Cheyenne River Sioux and Lower Brule Sioux tribes.
    Through the American Recovery and Reinvestment Act, South Dakota 
received approximately $11.5 million in formula funds of which 70 
percent were for rural areas in the State and were used for critical 
infrastructure replacement and expansion needs. Recipients in South 
Dakota also received over $6 million from FTA's FY2011 and FY2012 State 
of Good Repair Initiative. River Cities Public Transit also received a 
total of $319,200 in FY2011 and $369,200 in FY2012 and Prairie Hills 
Transit received $213,680 through FTA's Veterans Transportation and 
Community Living Initiative to improve transit scheduling and outreach 
to transit-dependent veterans.
    Consistent with the President's request, MAP-21 establishes a new 
grant program to maintain public transportation fixed guideway and high 
intensity bus systems in a state of good repair. According to the 
statute, once a final rule implementing the State of Good Repair 
program is issued, projects must be included in a transit asset 
management plan to receive funding allocations. MAP-21 authorized $2.1 
billion in FY2013 and $2.2 billion in FY2014 for this program. Funds 
will be apportioned consistent with a new statutory formula program, 
which includes a new tier for high-intensity bus.
Asset Management Provisions (Section 5326)
    Asset management was a priority for FTA long before MAP-21. The $78 
billion repair and maintenance backlog that FTA's research identified 
in 2008 has likely increased by as much as 10 percent in recent years. 
FTA recognizes that, while a sustained Federal contribution to our 
state of good repair needs is in the interest of our Nation's public 
transportation systems, this problem cannot be solved by Federal action 
alone. Tackling this problem requires a concerted effort by Federal, 
State, and local resources in a coordinated, strategic manner. That is 
why FTA is establishing a national Transit Asset Management System. The 
new section 5326 Transit Asset Management program established under 
MAP-21 is vitally important to carrying out these infrastructure 
investments effectively and responsibly. MAP-21 requires FTA to define 
the term ``state of good repair'' and create objective standards for 
measuring the condition of capital assets, including equipment, rolling 
stock, infrastructure, and facilities. Based on that definition, FTA 
must then develop performance measures under which all FTA grantees 
will be required to set targets. This innovative program requires all 
FTA funding recipients to adopt a structured approach for managing 
their capital assets and be accountable for leveraging all available 
resources to bring their systems into a state of good repair. FTA will 
support this effort through technical assistance, including the 
development of an analytical process or decision support tool that 
allows recipients to estimate their capital investment needs.
    FTA has reached out to stakeholders to determine ways in which 
transit asset management systems can be tailored to small operators 
that typically provide service in small urbanized and rural areas as 
well as on tribal lands, and we will continue to do so. Most recently, 
FTA organized a focus group conference call with small operators in 
conjunction with the Community Transportation Association of America 
(CTAA). We also hosted an online dialogue in which more than 700 
stakeholders participated, contributing more than 200 ideas and 
comments, and providing nearly 1,500 feedback votes on the ideas and 
comments that were submitted. The next step in our outreach efforts 
will be a rulemaking on Transit Asset Management. FTA strongly 
encourages small transit operators to provide comments on the rule once 
it becomes available.
Emergency Relief Program (Section 5324)
    Nowhere has FTA made more aggressive progress in implementing the 
provisions of MAP-21 than in the area of emergency relief. The 
President's Budget first proposed in FY2012 a new emergency relief 
program for the FTA to parallel a similar capability in the Federal 
Highway Administration. The Budget proposed this program to strengthen 
the agency's authority to provide disaster assistance to transit 
agencies in the wake of major natural disasters and other emergencies, 
and the program was authorized by Congress in MAP-21. The authorization 
of this new program arrived just in time for Hurricane Sandy, which was 
the worst public transit disaster in the history of the United States. 
Hurricane Sandy devastated transportation systems in the hardest-hit 
parts of New York and New Jersey--which together represent more than 
one-third of our Nation's transit ridership--and triggered a very rapid 
implementation path for the program. More generally, however, this 
program helps States and public transportation systems pay for 
protecting, repairing, and/or replacing equipment and facilities that 
may suffer or have suffered serious damage as a result of an emergency, 
including natural disasters such as floods, hurricanes, and tornadoes. 
It will be available to the Sioux Falls transit community should the 
need arise.
Urbanized Area Formula Grants (Section 5307)
    The largest of FTA's grant programs, this program provides grants 
to urbanized areas to support public transportation. Funding is 
distributed by formula based on the level of transit service provision, 
population, and other factors. MAP-21 provides total funding of $4.9 
billion in FY2013 and $5 billion in FY2014. The program remains largely 
unchanged with a few exceptions. Job access and reverse commute 
activities providing services to low-income individuals to access jobs 
have been consolidated into this program and are now an eligible 
expense. MAP-21 expanded eligibility for operating expenses for systems 
with 100 or fewer buses in urbanized areas with populations of 200,000 
or more. Operating assistance remains an eligible activity for small 
urbanized areas, such as Sioux Falls and Rapid City. Based on the 
apportionment formula, South Dakota will receive approximately $3.6 
million in urbanized area formula funds for allocation to its small 
urbanized areas in FY2013. This is a 16 percent increase over the 
amount apportioned to the State for those areas last fiscal year.
Bus and Bus Facilities Program (Section 5339)
    MAP-21 followed the Administration's request to fold the 
discretionary bus program into a formula program. This capital program 
provides funding to replace, rehabilitate, and purchase buses and 
related equipment, and to construct bus-related facilities. MAP-21 
authorized $422 million in FY2013 and $428 million in FY2014. Each 
fiscal year, each State will be allocated $1.25 million and each 
territory (including DC and Puerto Rico) will receive $500,000. The 
remaining funds will be distributed by formula. Funds are available to 
eligible recipients that operate or allocate funding to fixed-route bus 
operators. Eligible subrecipients include public agencies or private 
nonprofit organizations engaged in public transportation, including 
those providing services open to a segment of the general public, as 
defined by age, disability, or low income.
    In FY2013, South Dakota is projected to receive a statewide 
allocation of $1.25 million under this program. These funds can be used 
anywhere in the State, including for projects in rural areas and on 
tribal lands. South Dakota's urbanized areas are projected to receive 
$385,882 in bus funds. These funds are allocated to the State and the 
State can distribute them among the urbanized areas based on a locally 
determined process.
    We at FTA look forward to working with our stakeholders to address 
the challenges laid out for us by Congress and the President in MAP-21. 
I will be happy to answer questions.
                                 ______
                                 
                 PREPARED STATEMENT OF DARIN BERGQUIST
          Secretary, South Dakota Department of Transportation
                             March 28, 2013
    Chairman Johnson, I am Darin Bergquist, Secretary of the South 
Dakota Department of Transportation (SDDOT). Thanks for this 
opportunity to appear before the Committee. Today, I'll begin by 
commenting on the Federal surface transportation authorization 
legislation enacted last summer, ``MAP-21'' (the ``Moving Ahead for 
Progress in the 21st Century Act''). However, as MAP-21's funding 
authorizations extend only through September 30, 2014, I'll also 
comment on the next highway and transit authorization bill.
    Mr. Chairman, our overall view of MAP-21 is positive. As a 
Committee Chair you had a strong role in the development of the 
legislation and we appreciate those efforts. We also deeply appreciate 
the efforts of the entire South Dakota congressional delegation on this 
law. Let me outline why we have a positive view of MAP-21.
Key Provisions of MAP-21 for South Dakota
    Very Importantly, South Dakota's Highway Formula Share Was 
Preserved Under MAP-21. With our long stretches of highway helping 
connect the Nation, and with relatively few people to support that 
extensive network of Federal-aid highways, our State has always 
received a higher share of Federal highway apportionments than its 
share of contributions to the Highway Trust Fund. That result is in the 
national interest, but we don't take it for granted. Maintaining the 
State's highway formula share helps the SDDOT respond to transportation 
needs and provide quality transportation options to our citizens and 
businesses. In addition, buses and vans deliver all of South Dakota's 
transit services, and good highways are essential to support those 
services.
    Also Importantly, South Dakota Received an Increase in Transit 
Formula Funding Under MAP-21. The increase in South Dakota's share of 
the transit program is a very good result--and, again, a meritorious 
one. As the Committee that you chair, Senator, has jurisdiction over 
the transit program, we want to express our particular appreciation for 
your work on MAP-21 to increase transit funding for South Dakota, other 
rural States, and tribes. Transit is not just for big metropolitan 
areas. It is important in rural States as well. MAP-21's transit 
funding provisions will help provide more effective options to South 
Dakotans by enabling transit providers across our State to better meet 
the needs of senior citizens, people with disabilities, those who can't 
afford personal vehicles, and others.
    MAP-21 Provided Some Program Stability. By providing authorizations 
through September of 2014, MAP-21 supplied some stability for 
administration of transportation programs. Until MAP-21 became law, the 
SDDOT and others were operating under Federal transportation programs 
funded through short-term extensions of a few months. This created 
administrative and funding challenges, as our Department inevitably had 
to focus on short-term projects needing only small funding amounts.
    MAP-21 also set overall funding levels for the highway and transit 
programs at approximately the levels of immediately prior authorizing 
legislation and improved our State's transit funding. Transportation 
infrastructure funding provides jobs during construction and 
facilitates long-term economic growth after construction by improving 
efficiency and personal mobility. As you know, Mr. Chairman, at various 
times in the debate over what became MAP-21, some discussed significant 
reductions in surface transportation funding. We are pleased that did 
not occur. Let me be clear, if funding could be increased, we could put 
those funds to good use efficiently in South Dakota. But, under the 
circumstances, we consider the overall program levels in MAP-21 to be a 
positive result for this 2-year period. However, as I will discuss in a 
moment, we are concerned that highway and transportation programs face 
funding uncertainty again, this time for the years after Federal Fiscal 
Year (FFY) 2014. We need to continue to look for funding stability and, 
at a minimum, maintain current funding levels.
    Improved Environmental Review Process Is Welcome. We are also 
pleased that aspects of MAP-21 require administrative action to 
expedite or simplify the environmental review process. USDOT is 
directed to provide categorical exclusions from NEPA review for, among 
others: projects within an ``operational right-of-way''; and projects 
with a Federal contribution of less than five million dollars. Many of 
SDDOT's projects should benefit from these two provisions.
    Program Consolidation and Flexibility Is Helpful. Many elements of 
the Federal highway program have been modified and combined into a 
smaller number of programs. This helps simplify the program. More 
importantly, significant transferability between programs has been 
maintained. In addition, MAP-21 increased the percentage of the overall 
highway and transit programs distributed by formula--a positive change. 
Collectively, these features mean State DOTs will have reasonable 
flexibility in programming Federal funds.
Looking Ahead--New Legislation and MAP-21 Implementation
    In formulating the next highway and transit authorization it is 
critically important to achieve a good funding solution. I have already 
noted that, in crafting MAP-21, Congress found a way to avert large 
cuts and essentially continued funding levels for highways, transit, 
and highway safety.
    Yet, as we meet here today, the transportation community is already 
discussing the importance of avoiding a catastrophic drop in funding 
for these programs due to the decreasing balances in the Highway Trust 
Fund and the fund's projected inability to support current funding past 
FFY2014--and maybe not even until the very end of FFY2014.
    While the highway program was largely (though not completely) 
exempted from sequestration, transfers into the Highway Trust Fund 
authorized by MAP-21 were subject to a reduction, increasing the risk 
that the trust fund may not be able to support MAP-21 funding levels 
through the end of FFY2014.
    In short, what is needed is a stable funding situation going 
forward, with funding at least at current levels, if not higher, as 
there are substantial needs for transportation investment here in South 
Dakota as well as elsewhere. We can't let highway program funding 
levels fall off a cliff after FFY2014.
    Before turning to other issues, let me mention that the debate on 
the next authorization bill could have some impact on the real world 
even before Congress acts on such legislation. For example, our 
contractor partners in the private sector construction industry have 
important decisions to make regarding acquisition of equipment and the 
sizing of their workforce. If the uncertain future funding is not 
addressed, it will impact those decisions next year, in 2014. 
Similarly, it will impact our fall 2014 project lettings and plans at 
South Dakota DOT regarding the program for FFY2015 and later. We want 
to remain hopeful of a good outcome, but all concerned will have to 
watch and plan accordingly.
    Beyond funding, while I have noted positive features in MAP-21, 
some provisions of the legislation impose new requirements, or require 
USDOT to develop new requirements. We are hopeful, but not certain, 
that new provisions will be implemented in a nonburdensome manner.
    For example, Congress tasked USDOT to develop a number of 
``performance measures'' and to require States to set targets for 
performance based on those measures. These and other ``performance 
management'' initiatives in the law (such as asset management 
requirements) could require considerable attention and effort, 
especially if USDOT is too prescriptive in implementation.
    Similarly, new provisions regarding freight transportation may 
result in additional data collection, planning, and consultation. Last 
fall USDOT issued interim guidance for State freight plans, setting 
forth steps that a State should take to qualify for a reduced non-
Federal match on certain projects. The interim guidance unfortunately 
included many elements in addition to those required in statute.
    Moreover, we encourage USDOT freight planning efforts to go beyond 
issues such as container movements in and out of ports (those are 
predominantly import moves). Any national freight planning efforts must 
recognize that moving agricultural and natural resource products from 
farms and extraction points in States like South Dakota to national and 
world export markets is an important national freight concern.
    However, whether the issue is freight planning, performance 
measurement or something else, the key point is that if new Federal 
requirements can be minimized, SDDOT will be able to spend relatively 
less time on administrative compliance and will be better able to focus 
on improving transportation for South Dakota's citizens and businesses.
    Safety is always a priority for us and MAP-21 includes new transit 
safety provisions. However, we are hopeful that implementation of the 
new Federal transit safety requirements in MAP-21 will be properly 
scaled to the problem at hand. In South Dakota, in the last 7 years the 
one fatal incident involving a transit vehicle was caused by the 
nontransit vehicle. We are hopeful that new regulations will not impose 
on our small transit systems complex safety or asset management 
requirements that are more appropriate for large city transit systems. 
Frankly, we think an efficient performance-based system would impose no 
new requirements, or only very few requirements, on small transit 
systems, as they are already experiencing safe outcomes.
    In any event, I want to assure you and those in the South Dakota 
transportation community that the SDDOT is working closely with small 
and tribal transit providers and other interested parties in 
implementing MAP-21.
Looking Further Ahead--South Dakota's Continuing Interests in the 
        Federal Surface Transportation Programs
    Before closing, let me offer a few perspectives on the long-term 
interest of South Dakota in the Federal surface transportation program. 
These are concepts that warrant attention as we work to improve 
transportation in South Dakota and the Nation in future legislation.
Funding--Federal Transportation Investment in Rural States Benefits the 
        Nation
    The national interest requires significant Federal surface 
transportation investment in rural States. Consider truck movements 
from ports in the Pacific Northwest to Chicago or other heartland or 
eastern destinations. These and other movements across States like ours 
benefit people and commerce in the metropolitan areas at both ends of 
the journey. The Federal-aid highways in rural States provide many 
national benefits. These routes:

  <bullet>  serve as a bridge for truck and personal traffic between 
        other States, advancing interstate commerce and mobility;

  <bullet>  support agricultural exports and serve the Nation's ethanol 
        production, energy extraction, and wind power industries, which 
        are located largely in rural areas;

  <bullet>  connect portions of rural America underserved after the 
        abandonment of many branch rail lines;

  <bullet>  provide access to scenic wonders like Yellowstone National 
        Park, Badlands National Park, and Mount Rushmore;

  <bullet>  serve as a lifeline for remotely located and economically 
        challenged citizens, such as those living on tribal 
        reservations;

  <bullet>  enable people and business to access and traverse vast 
        tracts of Federally owned land; and

  <bullet>  facilitate military readiness.

    In addition, the Federal-aid highway program enables enhanced 
investment to address safety needs on many rural Federal-aid routes. 
The investments supported by Federal highway and surface transportation 
programs create both direct and indirect jobs and support economic 
efficiency and growth.
    Moreover, in our State and many other western States the percentage 
of truck traffic on the highways that does not either originate or 
terminate within the State exceeds the national average. Rural freight 
will become increasingly important as the world population of 
approximately 7 billion people expands by over 1 percent per year or 
approximately 70 million people. South Dakota agriculture will need 
transportation improvements to remain competitive in serving those 
markets. So, investments in highways in rural States are clearly 
serving interstate and national interests.
    Yet, a State like South Dakota faces significant transportation 
infrastructure funding challenges. We can't provide all these benefits 
to the Nation without Federal funding leadership. We:

  <bullet>  are geographically large, including large tracts of Federal 
        lands;

  <bullet>  have an extensive highway network; and

  <bullet>  have low population density.

    This means we have far fewer people than the average State to 
support each lane mile of Federal-aid highway--and preserving and 
maintaining this aging, nationally connected system is expensive. Yet, 
citizens from South Dakota and similar States contribute to this effort 
significantly--the per capita contribution to the Highway Trust Fund 
from rural States exceeds the national average. Further, with our low 
population and traffic densities, tolls are not a realistic option for 
funding transportation needs in rural areas.
    Fortunately, in MAP-21 and in prior legislation, Congress has 
consistently recognized it is in the national interest to provide 
significant Federal funding to support highways and transportation in 
and across rural States like ours. For reasons such as outlined above, 
future legislation should continue that approach.
Federal Investment in Public Transportation in Rural States Is 
        Warranted
    Public transportation is not just for big metropolitan areas. 
Transit plays an increasingly vital role in our State's surface 
transportation system. Federal funding for it is absolutely necessary.
    Our two largest metropolitan areas, Sioux Falls and Rapid City, 
receive direct apportionments from the FTA, as do some tribal 
governments. Our more rural areas and smaller cities and some of our 
Indian reservations also have needs for public transportation. We have 
22 small transit providers in our State receiving Federal transit funds 
indirectly through the SDDOT, under the rural transit program (the so-
called 5311 program).
    Federal investment in rural transit helps ensure personal mobility, 
especially for senior citizens and people with disabilities, connecting 
them to necessary services and employment. Transit service is an 
important, often vital, link for citizens in small towns to get to 
medical appointments, including dialysis and cancer treatments, as well 
as to work, educational opportunities or other destinations. South 
Dakota's population is aging and people want to age in place and stay 
in their homes and communities. For people that can no longer drive, 
transit plays a vital role in supporting this choice. As the population 
ages, there will be increased demand for transit services.
    So, there are considerable demands for transit service in our State 
from seniors and people with disabilities. The funding for transit for 
South Dakota under MAP-21 is helping address these challenges. In 
addition, it is important that operating as well as capital costs 
remain eligible uses of the Federal transit program. Capital investment 
in buses is important but any lapse in the ability to operate would 
adversely affect our transit users.
    Not only does rural transit sustain over 530 direct jobs across 
South Dakota, it allows children to access preschool and other 
education opportunities while their parents remain at work, 
strengthening their productivity and earning potential while supporting 
their families. Clearly, Federal public transportation programs must 
continue to include funding for rural States.
    In addition, we consider it highly appropriate that MAP-21 
increased the percentage of overall transit formula funds going to the 
rural transit program and, within the rural transit program, slightly 
increased the share of funds for very rural States. This is warranted 
because of the special transit challenges facing a very low population 
density State like ours.
    Rural transit is usually provided by small bus and van service. 
Frequently, it is on demand service for the elderly and disabled, such 
as nonemergency trips to the hospital, pharmacy, or clinic, or trips to 
a grocery store. This is especially challenging in the very low 
population density States, where the one-way trip to a medical facility 
for one or two riders can be 50 miles or more.
    There are some basics needed for transit service regardless of 
population or traffic density. Service requires a qualified driver. It 
requires a well-maintained and well-equipped bus or van. It requires 
vehicle parts. These elements are essential whether a bus is carrying 
only four people and has to travel 50 miles (big State, low density) or 
is carrying 15 or more people over short distances in towns with a 
population of 45,000.
    In short, providing essential public transit connectivity can be 
particularly challenging in extremely rural areas. In MAP-21 (and in 
SAFETEA-LU as well), Congress appropriately has begun to respond to the 
challenges of providing public transportation service in a very rural 
State like ours by increasing funding for the 5311 program and 
adjusting its formula to give greater funding weight to a State's 
having a large land area.
Additional Considerations
    Before closing, let me turn to a few additional considerations 
regarding the Federal program. We strongly favor a flexible approach 
that will increase, not limit, State discretion and reduce regulations 
and program requirements. We also hope Congress will continue to 
distribute the vast majority of program funds by formula. That formula 
approach, with fewer, not more regulations or program complications, 
will enhance the ability of the SDDOT to effectively provide 
transportation options while also generating jobs, facilitating 
commerce, and enhancing personal mobility and the quality of life of 
our citizens.
Conclusion
    In conclusion, it is essential that Federal surface transportation 
programs and legislation continue to recognize that significant Federal 
investment in highways and transit in rural States is, and will remain, 
in the national interest. We are pleased MAP-21 meets that test. So 
must future legislation. The citizens and businesses of our Nation's 
more populated areas, not just residents of rural America, benefit from 
a good transportation network in and across rural States like South 
Dakota. With such legislation, combined with fewer, not more program 
requirements and rules, the SDDOT will be better equipped to address 
transportation needs to the benefit of South Dakota and the Nation.
    That concludes my testimony. I'll be happy to respond to any 
questions you may have.
                                 ______
                                 
                  PREPARED STATEMENT OF COSETTE FESTER
                   Sioux Area Metro Paratransit Rider
                             March 28, 2013
    Sixteen years ago I had never heard of paratransit or even had a 
need to know about it. That all changed in January of 1997 when we were 
in a car accident which severed my spine at T5. I was in the hospital 
for 6 months. I have rods holding up my back so I can sit up and also 
rods holding up my rib cage. Everyone in the hospital tried to get me 
to sign up for Medicaid, etc., but my family said that I would be going 
back to work. At the time I was an insurance adjuster specializing in 
Workmen's Comp. My boss kept whispering in my ear that I would have a 
job waiting for me when I was ready to come back to work.
    In October I started back part time at first. My husband was 
driving me back and forth but that got to be a tiresome job on both of 
us. My husband is years older, and has numerous health issues of his 
own. Am not sure how I got signed up for paratransit but my family 
called them and away I went!!! The first day I made my husband follow 
me all the way to work and back again. I cried all the way to work. My 
poor bus driver kept asking me if I was alright and I just kept on 
crying and shaking my head. On that day, I felt feelings of inadequacy 
and dependency. My feelings have greatly changed since that day.
    Paratransit has been my salvation. They pick me up at my door and 
drop me off at my door. I am unable to open the doors myself as I do 
not have the upper strength to do so. Also my wheelchair does not allow 
me to get up close enough to the door to open it myself.
    I think back at what people did before we had these services. I am 
not a person that could just stay at home--I need the interaction of 
people. I need to be useful and kept busy. Before I went back to work I 
sat home and cried and felt sorry for poor me! I felt a burden to my 
family and was unclear with what to do with my life. Paratransit is 
more than just a way for me to get to work--it is another way for me to 
connect. I see so much good in the people that work there as well. I 
once had a bus driver who wrote a poem for me. My family and I cherish 
the words of this wise man, my paratransit driver. He wrote about how I 
am defined by me and not my chair. The way I handle this life is not 
what matters most, I need to make the best of it, for I will walk in 
the Promised Land. So, what you need to realize is that Paratransit 
means a whole lot more than transportation to its riders. It's key to 
our independence, and it enhances our self worth through its people and 
its services. Without this service and the special people employed by 
our Government--I would be lost.
    God has put a lot of different people on this earth. I used to 
consider myself average and just your average middle-class working 
woman. However, the tragedy that occurred that night in 1997, made me 
special yes, with a disability but most importantly, I am special 
because unlike many others--I now see the good in so many people. I 
instantly recognize good will and civility in ways that most average 
Americans fail to recognize. I am very grateful for all of the good 
deeds that are provided continual by Paratransit.
    The Poem:

        Though my body is all crippled God has blessed me with my mind, 
        and the will to be productive more than most you'll find. This 
        chair is but a transport of the gifts God gave to me 
        intelligence, compassion Love of Life is what you'll see. My 
        faith has made me whole and life is precious everyday, a belief 
        in all that's positive perseverance is my way. So, if all you 
        see is crippled then your eyes are truly closed, for everything 
        BUT handicapped is what my spirit shows. My mind is free from 
        worries all my troubles in his hands, through my faith my 
        life's forever and I'll stand in the Promised Land!
                                 ______
                                 
               PREPARED STATEMENT OF LYNNE KELLER FORBES
        Executive Director, South Eastern Council of Governments
                             March 28, 2013
    Thank you, Chairman Johnson, Ranking Member Crapo, and Members of 
the Committee, for the opportunity to highlight our views on the new 
Federal surface transportation law, Moving Ahead for Progress in the 
21st Century Act (MAP-21), and the transportation investments the law 
provides, especially for our Nation's small metropolitan and rural 
regions.
    My name is Lynne Keller Forbes and I am the Executive Director of 
the South Eastern Council of Governments (SECOG), headquartered in 
Sioux Falls, South Dakota, and serving the six most southeastern 
counties of the State. SECOG is also the fiscal agent of the Sioux 
Falls Metropolitan Planning Organization (MPO); the transportation 
planning organization for the Sioux Falls urbanized area.
    As the Committee examines the impacts of MAP-21 on public 
transportation and transportation investments in rural States like 
South Dakota, I respectfully submit the following observations:
    First, Mr. Chairman, it is important to note the benefits of the 
law having rejected efforts to change the population threshold for 
becoming and remaining an MPO.
    If MAP-21 would have included a provision to increase the 
population threshold of MPO's to 200,000, as one of the draft bills 
proposed, the Rapid City, Sioux City, and Sioux Falls MPOs would have 
been three of the 220 of 385 MPOs potentially eliminated; leaving the 
State of South Dakota with zero MPOs.
    It is important to maintain MPOs in rural States like South Dakota 
to ensure the input of the citizens and local elected officials of 
small metropolitan areas are considered in the transportation planning 
process. The populations of the communities of the Sioux Falls MPO are 
increasing at record rates and the borders of these communities are 
continually growing closer together. The Cities of Brandon, Crooks, 
Harrisburg, and Tea currently have borders approximately one to two 
miles away from the City of Sioux Falls' border. The borders of these 
four communities will meet Sioux Falls' border by 2035. The literal 
closeness of these communities only emphasizes the importance of a 
local transportation planning organization to ensure coordination 
amongst the communities, to ensure the needs of the region are met, and 
to ensure the voices of local citizens and elected officials are heard 
during the transportation planning and programming process.
    The Sioux Falls MPO transportation planning budget has been just 
under $2 million for the past few years and has increased to over $3 
million for 2013. The regionally significant activities accomplished 
with that funding include a transportation planning study of 41st 
Street and the I-29 interchange to identify potential projects to 
improve traffic flow on one of the busiest streets and interchanges in 
the State. A similar study is also being completed by the MPO for 26th 
Street and the I-229 interchange, an area that experiences significant 
traffic delays during the morning and evening commutes. In addition, a 
recent impressive collaboration by the Sioux Falls MPO communities 
resulted in the ``Sioux Falls MPO Multi-Use Trail Study'' to identify 
corridors to connect the trails of Brandon, Harrisburg, and Tea to 
Sioux Falls' extensive trail system. Once implemented, pedestrians and 
bicyclists will have a safe way to travel between the MPO communities. 
Transit activities completed by the MPO include a recently completed 
route study to improve the Sioux Falls transit system and plan for 
future needs of the system. A space needs study was also recently 
completed to plan for the expanded needs of the transit system's office 
and storage facility.
    Additionally, Mr. Chairman, the continued increase of Federal 
support for public transportation, as demonstrated by MAP-21, is 
essential for the economic growth of rural States like South Dakota and 
small metropolitan areas like Sioux Falls.
    Public transportation contributes to economic growth not only by 
connecting people to jobs, health care, businesses, and tourist 
destinations, but also by reducing the cost of transportation and 
creating jobs. According to a recent report completed by the South 
Dakota Department of Transportation entitled ``Costs and Benefits of 
Public Transit in South Dakota'' the transit riders' out-of-pocket cost 
savings totaled $10.3 million in 2010 in South Dakota. This out-of-
pocket cost savings added $7.6 million and 70 jobs to the State's 
economy. The report also indicated that three jobs are created in the 
State for every 10 public transit jobs created. In 2010, public transit 
capital and operating expenses sustained 460 jobs and contributed $38.5 
million to the State's economy. The combined economic impact is 
estimated at $46.1 million annually.
    The ``Costs and Benefits'' report concluded that for every dollar 
invested in public transit, there is $2.07 economic and social benefit 
in the urbanized areas of the State such as Sioux Falls. MAP-21 
authorized a slight increase in funding for transit programs from 
$10.458 billion in FY2012 to $10.578 billion in FY2013 and $10.695 
billion in FY2014. The increased funding allows for better 
transportation planning and will continue to contribute to the economic 
growth of the State and Sioux Falls area. Sioux Area Metro (SAM), Sioux 
Falls' public transit system, provided almost 1.2 million rides in 
2012, a 3.1 percent increase from 2011. Additionally, SAM employs about 
95 people and has an annual operating budget of around $3.5 million.
    With the previously mentioned growth that the Sioux Falls area has 
been experiencing, the transit service will need to be expanded to 
reach the new employment and residential areas of the community. The 
``Transit System Analysis--Grid Network Alternatives'' study completed 
by the Sioux Falls MPO just last month concluded that an additional 
$1.2 million, or about 1/3 of the current budget, would need to be 
added to SAM's annual operating budget for the extended transit service 
needed by year 2035. In addition, increased funding will be needed for 
capital costs such as additional buses and transfer centers and the 
expansion of the storage and office facilities. A recent space needs 
study completed by the MPO estimated that a $13 million expansion of 
SAM's office, maintenance and storage facility will be needed to meet 
transit needs.
    In closing, Mr. Chairman, we are encouraged by the support for 
transportation planning and public transportation that is demonstrated 
by MAP-21.
    As you have heard, the transportation planning funding and public 
transportation funding authorized by the transportation bills is 
effectively utilized in the Sioux Falls MPO and contributes 
significantly to the economy of the State of South Dakota. MAP-21 
expires on September 30, 2014. As work begins on the next bill, 
sustained and increased support is needed to ensure coordinated 
transportation planning and programming activities among local citizens 
and elected officials are continued on a regional basis in rural States 
like South Dakota and to ensure the notable economic benefits of public 
transportation are not lost by our State.
    Thank you again, Mr. Chairman and Members of the Committee, for the 
opportunity to testify today. I'd be pleased to answer any questions.
                                 ______
                                 
               PREPARED STATEMENT OF EMMA FEATHERMAN-SAM
                   Coordinator, Oglala Sioux Transit
                             March 28, 2013
    Euha chi cante wasteya nape ceyuspa pi (I give each of you a 
heartfelt handshake). Thank you for inviting me to testify before the 
Senate Committee on Banking, Housing, and Urban Affairs Field Hearing. 
I am honored.
    The people who have needed the most help with transportation have 
accepted Tribal Transit systems across Indian Country voraciously. 
Transportation on the Pine Ridge Reservation via some type of vehicle 
is most often either unavailable or if a vehicle is available--is not 
in the best working condition or the cost of operating the vehicle is 
prohibitive. The safe, reliable services of Oglala Sioux Transit have 
already provided a valuable addition to the quality of life factors for 
many residents of the Pine Ridge Indian Reservation.
1. Oglala Sioux Transit
    After an extensive planning process, the Oglala Sioux Transit 
Project received funding from the Federal Transit Administration and 
the Bureau of Indian Affairs to construct a 12,500 sq. ft. transit 
facility and purchase buses (three 22 passenger and five 16 passenger). 
The Transit Facility was completed October 2008. Vehicles were 
purchased and delivered September 2008 and January 2009. Transit 
services began on February 3, 2009, as a deviated fixed route system 
covering approximately 1,806 miles daily with the main route being 111 
miles one way (from the village of Wanblee on the eastern side of the 
Reservation to Prairie Wind Casino on the western side). Unlike urban 
areas, the Pine Ridge Reservation's communities are widely separated 
and located along rural roads that were not designed for efficient 
transportation. The seven (7) routes travel through sixteen (16) of the 
main villages on the reservation with 35 stops providing the general 
public with access to college courses, employment, medical, business 
and shopping services on the reservation. The Program has been actively 
considering expanded transit services for a 24 hr/day, seven days/wk 
schedule across the Pine Ridge Indian Reservation and a 3 times/day, 3 
days/wk scheduled route to Rapid City, SD. The Oglala Sioux Tribal 
Council will shortly be considering its input into these decisions and 
we anticipate a final determination in the near future. The increased 
levels of service will greatly enhance the Transit system's capacity to 
address the transit needs of a much broader portion of the client 
population.
    The OST DOT Transit Program is comprised of seventeen employees 
(Coordinator, Office Manager, Maintenance Support Technician, 
Dispatcher, Bus Drivers (12), and a Bus Mechanic. We also take part in 
providing slots for TANF workers that provide the Receptionist, filing 
and cleaning of the facility.
    The Pine Ridge Indian Reservation is comprised of approximately 2.7 
million acres of land (4,200 sq. mi.) that encompass three counties of 
South Dakota--Shannon, Bennett, and the southern half of Jackson. There 
are 6.5 (Shannon), 2.9 (Bennett) and 1.6 (Jackson) persons per square 
mile within the boundaries of the Reservation. Based on Tribal program 
data the population of the reservation is approximately 47,000, of 
which there are 38,000 enrolled tribal members. The 2010 US Census 
shows 20,048 (a massive undercount) and the Department of Housing and 
Urban Development's NAHASDA population numbers of 43,146. The Pine 
Ridge Indian Reservation is extremely rural, with an underdeveloped 
economy and infrastructure. According to the U.S. Bureau of Indian 
Affairs, unemployment on the Reservation is 89 percent. (BIA Labor 
Force Report, 2005). Persons below poverty levels on the Reservation 
remain among the highest in the United States with the 2009 Census data 
indicating 51 percent for Shannon County, 37.8 percent for Bennett 
County and 36.1 percent for Jackson County.
    Due to the extreme poverty of the Pine Ridge Indian Reservation, 
many residents do not have access to private automobiles and, in the 
absence of Oglala Sioux Transit, must often pay another individual to 
transport them to their destination. Many of these travelers are the 
elderly and disabled. A transit study/survey conducted for the OST 
Short Range Transit Plan (December 2002) indicates that the lack of a 
public transportation system hinders individuals on the Reservation in 
accessing employment, medical appointments, conducting business, 
shopping, and attending college classes. Oglala Sioux Transit is 
increasingly meeting the needs of many of these persons as the program 
has matured and become more widely known.
a. Transit Passengers
    The Transit Program provides transportation in handicapped 
accessible vehicles (buses and vans) as a deviated fixed route rural 
transit system. In order to serve the widely dispersed communities on 
the Reservation, the Project has established routes with bus stops 
convenient to the local residents that provide this access for 
transportation to their destination. Many have stated that they would 
like to just go visit relatives in another district. Hiring and 
training tribal members for the project has provided residents with 
safe, reliable transportation to their destination.
    The types of passengers that ride the transit range in ages from 
infant to senior citizens that are 60+ years old. Based on the total 
for the 4 full years of operation, seniors comprise an average of Year 
1--20 percent to year 4--26 percent of passenger trips. Students are 
designated as anyone in attendance at an academic institution from 
Kindergarten through College. Some of the Student riders could be 
considered as Adults or Senior citizens, but a passenger can designate 
themselves as a student if they have an Identification Card (i.e., 
college students) so they can receive the $1.00 off the fare.
    The following table provides a brief summary of the Program's 
operational benchmarks and illustrates increased usage by the 
membership.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

b. Routes/Fares
    The Transit Project recognizes the limited financial resources of 
the Tribal membership and has strived to provide its services at a cost 
the client population can afford. Our fares range from $1.00 to $5.00 
one way and $2.00 to $8.00 round trip. The Project faces the constant 
challenge of providing affordable Transit services over this huge 
geographic area.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

c. Local Support
    Transit services are coordinated with many of the Tribal programs 
that have limited budgets for client transportation (Oglala Lakota 
College Centers (9), Community Health Representatives, Anpetu Luta 
Otipi, Transitional Living Program, Domestic Violence Shelters, 
Childhood Programs, SD Department of Social Services, Oglala Sioux 
Tribe District Service Centers, Oglala Nation Tiospaye & Advocacy 
Center, etc.). We expect increased usage by these clients as program 
budgets tighten in coming years.
2. Tribal Transits Nationally
    A few Tribes across the U.S. have been accessing FTA funding 
through the States but more are now beginning the process of developing 
full blown rural transit systems as funds have become available through 
the Section 5311(c)(1), in FY06, 63 Tribes awarded approximately $8 mil 
and in FY12, 72 Tribes were awarded approximately $15 mil. Each fiscal 
year's Notice of Funding Availability from FTA has seen many more 
proposals submitted for more funds than are available. Many of the 
Transit systems are beginning to fully understand the processes and 
regulations required by the FTA funds and are beginning to develop 
their transit systems into longer term endeavors. The new MAP-21 funds 
will enable some of the Tribes to purchase vehicles and construct 
facilities to enhance their services, many Tribes had begun their 
Transit services out of their Department of Transportation's Road Shops 
or shared offices with other Tribal Programs.
    Most issues on reservations commonly experienced by Tribal Transit 
Managers are long routes, high mileage, lack of facilities, finding 
local consultants with transit expertise with tribal knowledge, etc. It 
has also been mentioned at the Tribal Transit conferences that direct 
contact between FTA regional offices and Tribes would be beneficial in 
terms of funding and services. Several Tribes have met and formed a 
National Tribal Transit Association to represent and advocate for them 
on tribal transit issues. The organization is in its infancy stage and 
just beginning to collect data and coordinate issues for Tribal transit 
systems across the Nation.
3. MAP-21
    Tribal Transit provisions of MAP-21 represent a significant 
improvement in the availability of resources that Tribes may access to 
assist with their public transportation needs. If tribal transit 
programs are to be successful, FTA funding must be adequate, 
predictable, and stable. It is my view that the Formula distribution of 
$25 million dollars is a significant improvement over prior years. 
While I recommend that annual appropriations be increased in future 
years due to inflationary factors and increased transit program 
development by more Tribes, Tribes may now rely upon a funding 
distribution process that has objective criteria that should minimize 
``feast or famine'' funding decisions. Tribes should be able to plan 
upon likely future funding levels (two, three, or more years later) 
with a reasonable degree of certainty. Facilities, equipment, routes 
and schedules can now be established on a long term basis that riders 
can become familiar with and rely upon.
    With the above discussion in mind, I would like to make the 
following points about tribal transit policies:

  1.  I am in substantial agreement with the funding formula factors 
        set forth in MAP-21;

  2.  I agree that funding distribution should include both annual 
        formula-based awards and separate competition-based grants;

  3.  I disagree with any ``matching funds'' requirement as a factor in 
        qualifying for or receiving FTA funding. Many Tribes simply do 
        not have either an adequate resource base nor sufficient taxing 
        authority to provide matching funds on an ongoing basis. These 
        facts are particularly true for many of the poorer Reservations 
        located in remote and isolated areas of the country.

  4.  There has been considerable discussion about establishing a 10 
        percent cap on indirect costs. Many tribal transit programs 
        think a 10 percent cap of Indirect Costs is a reasonable 
        compromise between the need of Tribes to receive adequate 
        contract support and the funding needed for delivery of direct 
        transit services.

  5.  With respect to the Request For Comments published in the Federal 
        Register on November 9, 2012 (see II b), I am concerned that 
        some limitation is needed to prevent potential formula 
        distortions. It is appropriate for Tribal Transit Programs to 
        interface with off-reservation communities and even to provide 
        direct public transit services under certain circumstances. 
        However, I recommend a more extensive consultation process with 
        Indian Tribes before FTA moves forward with its II b proposal.

    In closing, I would like to express my appreciation for the Senate 
Committee holding this field hearing. I am excited about the progress 
made by Indian Tribes and the FTA in providing public transit services 
on an equitable basis to one of the most underserved segments of the 
United States population. The Congress, the FTA, and Indian Tribes can 
rightfully be proud of the accomplishments made to this date and look 
forward to a continued partnership for future gains.
                                 ______
                                 
                 PREPARED STATEMENT OF BARBARA K. CLINE
   Executive Director, Prairie Hills Transit, Spearfish, South Dakota
                             March 28, 2013
    Senator Johnson, good afternoon. I am Barb Cline, the Executive 
Director of Prairie Hills Transit located in Spearfish, SD. I direct a 
transit agency operating within a 12,000 sq. mile service area, and 
like to think that I represent in large part many of the rural transit 
system operators that provide much needed trips to an array of 
destination in rural and small town America daily.
    I would like to sincerely thank you and FTA Administrator Rogoff 
for supporting community and public transit. We appreciate the 
increased formula funding in MAP-21 and the ongoing dialog you have 
permitted us.
    Today I would like to discuss how the new Federal surface 
transportation law, MAP-21, is impacting rural transportation operators 
and their constituents.
    Prairie Hills Transit is a company that grew from a single ``old'' 
green van that was not lift equipped and operated 4 hours daily in 
Spearfish for seniors. A short 23 years later our company operates and 
receives local support in 15 communities located in 6 counties in the 
Black Hills of western South Dakota. With 38 vehicles, 50 employees and 
a new transit facility our growth has been solid and stable. With your 
help Prairie Hills Transit can continue to grow and meet the ever 
increasing transportation service requests.
    You asked that we let you know our feelings regarding the affect 
specific programs might have. Let me begin with the Bus and Bus 
Facilities Program. The program is much smaller than the version that 
existed under SAFETEA-LU. While the formula based bus funds are 
appreciated, ultimately that dollar amount doesn't begin to touch the 
replacement needs of PHT or other agencies in our State. It is 
important for you to understand that many of these vehicles 
consistently travel 100-200 miles daily for medical and employment.
    Of the 38 vehicles Prairie Hills Transit operates 22 are 2005 or 
older and 17 of the 38 have 130,000 miles or more on their odometers. A 
significant commitment in the investment must be made in coming years.
    The safety and security requirements of MAP-21 are of real concern. 
Both have been a long standing commitment of Prairie Hills Transit and 
the Community Transportation Association of America (CTAA) even before 
MAP-21. We are currently pursuing a 3 year accreditation (Community 
Transportation Safety and Security Accreditation) offered by CTAA that 
meets the Federal Transit Administration endorsed standards. I would 
encourage FTA guidance to use a common sense approach so an undue 
burden wouldn't be placed on smaller agencies. State DOT's could easily 
use the National Transit Database (NTD) as a safety reporting 
mechanism. Guidance should not require a safety officer at each agency 
nor should a part time or full time safety officer be required. Perhaps 
planning funds could be used to complete the safety plan training 
implementation.
    I believe that asset management plans could and should be managed 
by the State Department of Transportation. Guidance would make the 
State accountable for their sub-recipients and this information could 
be entered into the National Transit Database. Having each recipients 
report on the condition of their system/systems would be particularly 
burdensome for smaller agencies.
Meeting the Current Needs
    Nearly 2 years ago the major healthcare company in our area came to 
us and initiated discussion regarding a discharge contract for patients 
at their primary hospital in Rapid City. This partnership has been 
working extremely well for over a year and is a model that could and 
should be emulated with any transit agency. With every challenge comes 
an improved way of providing high quality transportation service to 
patients who need hospital discharge transportation.
    Often medical discharges are trips that travel long distances with 
patients crossing State lines to be returned to their homes. Previously 
these people who didn't have transportation were sent home by ambulance 
incurring bills they could not afford to pay. If transportation was not 
available longer stays in the hospital often took beds and rooms that 
were needed for new patients. Recent feedback from a spokesperson at 
the major hospital in our area says ``The staff very much appreciates 
the collaborative partnership that has been developed with you and your 
team. Ultimately, the patients benefit the most.''
    Nonemergency medical transportation is one of the fastest growing 
services we provide. There is a vital role we all must play in 
healthcare transportation. It ultimately impacts our South Dakota 
residents who are a proud and independent population who won't ask for 
help but will take it if it is offered. The impact of outpatient 
services in relationship to hospitalization or patients being 
readmitted because they have no transportation to follow up care is 
monstrous. As a Medicaid provider we help young families with children, 
individuals with disabilities, and a growing number or wheelchair bound 
persons residing in residential living facilities, nursing homes, and 
assisted livings. Many are fiercely independent and take great pleasure 
in having Prairie Hills Transit and its drivers as their ride of 
choice.
    Daily needs being met:

  <bullet>  National Guard van pool taking employees to their jobs. The 
        route begins in Spearfish and ends in Rapid City.

  <bullet>  Transport minimum security prisoners from Rapid City to 
        Custer for employment.

  <bullet>  Dialysis appointments and cancer treatments--between 
        communities

  <bullet>  Job Access routes for mentally and physically challenged 
        adult-between communities-multiple agencies

  <bullet>  Hospital discharges--daily and with destinations often in 
        other States

  <bullet>  Children from daycare and schools allowing parents to 
        remain at work

  <bullet>  Disabled children integrated with

  <bullet>  Seniors to nutrition sites, social outings, medical, hair 
        appointments

  <bullet>  Essential public transportation in every community

  <bullet>  Medicaid, Medicaid, Medicaid

  <bullet>  Advocacy for our riders and their unmet needs.

  <bullet>  Veterans receiving medical transportation and assuming 
        volunteer roles

    We must begin to place a definable value and measurable outcomes 
for our critical medical needs. We must continue to be innovative and 
diversify programs our transit systems already work with. How do we 
measure and meet the need of a small community with a 40 bed nursing 
home filled with Medicaid residents that is 153 miles from the closest 
major medical center? Even more importantly how do we fund their 
transportation, provide a vehicle and ensure residents a quality of 
life?
Proud To Note
    Recently we logged our youngest rider at 8 days old. The other end 
of the life cycle is 103 year old Helen who rides daily to the senior 
meals program in a town of 600 people. Helen has averaged over 35 rides 
a month getting her out of her home, allowing her an independent 
lifestyle and making sure she receives a well balanced meal each day.
In Closing
    The Prairie Hills Transit system represents high professional 
standards, excellence in safety and security of passengers, and 
organizational quality and commitment. We exemplify a business persona 
that the public respects and recognizes as consistently and 
continuously meeting the needs of all communities in its service area. 
We strive to serve as a reflection of every other small rural agency in 
the Nation. No one can deliver transportation options better than rural 
transit.
    Just this week we were called to take a man from the hospital to 
his home town. He had been involved in a car accident where his 
granddaughter, the driver, died in the seat next to him. His wife 
passed away the day before his discharge from complications of the 
accident. I personally take great pride in the compassion our drivers 
show every day and the humility it requires for us to make a difference 
for our cities, counties, State, and country. We need your help to 
fight the battle rural systems fight each day. Thank You.
                                 ______
                                 
                  PREPARED STATEMENT OF MICHAEL COOPER
Director of Planning and Building Services, City of Sioux Falls, South 
                                 Dakota
                             March 28, 2013
    Sioux Falls is fortunate to have a high quality public 
transportation system with Sioux Area Metro (SAM). This past year the 
fixed-route system exceeded over 1 million riders for the first time. 
The paratransit system continues to provide quality service for those 
that cannot ride the fixed-route system and provides on average almost 
600 rides per weekday. Also, the total population of Sioux Falls added 
2,500 people last year and is projected to maintain that growth into 
the future. To maintain quality public transportation services, Sioux 
Falls and Sioux Area Metro are planning for ways to maintain services 
to an expanding and increasingly diverse population base.
    In just the past year, the City of Sioux Falls and the Sioux Falls 
MPO have completed studies to provide a plan for the future of public 
transit service in Sioux Falls. The studies have included the Transit 
System Analysis and the Space Needs Study. Also, the City of Sioux 
Falls has recently initiated a Fare and Operations Analysis to 
determine some of the short-term and mid-term changes that are required 
to implement recommendations from the Transit System Analysis.
    As a part of the Sioux Falls Route Analysis, three new routes and 
five expanded and/or modified fixed routes were planned to provide a 
higher level of service for the projected growth of Sioux Falls. As a 
part of this plan for expansion, Sioux Area Metro (SAM) would need to 
add three new transfer stations to improve route connectivity. Also, 
the Route Analysis recommended adding a few cross town routes to 
connect the new transfer centers and improve regional connectivity.
    Before expansion is possible, Sioux Area Metro (SAM) needs a major 
expansion of their bus storage and office facility, at 6th Street and 
Weber Avenue. The cost of this facility will exceed $12 million. This 
expansion was detailed in the Sioux Area Metro Space Needs Study 
completed in 2012. The Space Needs Study recommends that expansion of 
the bus storage and office facility is essential before any expansion 
of the system can take place. As I am sure you are aware, security, 
maintenance, and efficiency of the busses is dependent on good indoor 
storage for our bus fleet.
    Expanding transportation opportunities and enhancing the 
independence for people with disabilities is also a high priority for 
Sioux Area Metro. The paratransit bus system is very successful in 
Sioux Falls and will continue to be a very important piece of the 
system. However, the fixed-route bus system is very efficient and 
provides opportunities for greater transportation independence for all 
people. All fixed-route busses are fully accessible and bus stops 
throughout our service area continue to be improved to be accessible 
for people with disabilities. In fact, this year the City of Sioux 
Falls will be investing $46,000 in CIP money to upgrade 88 bus stops. 
The City of Sioux Falls will continue to find ways to improve the 
accessibility of our fixed-route system so all citizens have an 
opportunity for economical and quality transportation.
    The full funding of MAP-21 for public transportation and 
transportation investments are critical for the Sioux Falls region. We 
look forward to working with the Committee on providing more 
information about the needs for public transit and transportation as we 
move forward. Thank you for this opportunity to provide information.
                                 ______
                                 
                  PREPARED STATEMENT OF SARAH JENNINGS
                   State Director, AARP South Dakota
                             March 28, 2013
    Good afternoon, Chairman Johnson. I am Sarah Jennings, State 
Director of AARP South Dakota. I appreciate the opportunity to testify 
on a topic of critical importance to millions of older Americans in 
rural communities--how public transportation can help them maintain 
their independence, health, and quality of life.
Aging in Place
    Rural America is becoming increasingly older. South Dakota's senior 
population, for example, comprises 14.3 percent of South Dakota's total 
population, a greater share than for older persons in the U.S. 
population as a whole (13 percent). Indeed, as younger people relocate 
away from rural areas, often in search of work, the remaining older 
population (age 65 and above) has become a larger presence in rural 
America, now constituting 14 percent of all rural residents nationwide. 
Among the total population of people age 65 and over, one-fifth live in 
nonmetropolitan areas.
    Our research indicates that nearly 90 percent of persons age 50 and 
above prefer to remain in their homes as they age; and 95 percent 
prefer to remain in their communities. When older persons do move, they 
tend to move within the same county.
    In rural America, the greater distances between homes and essential 
destinations, such as health care, grocery stores and shopping, 
exacerbate the transportation challenges of older nondrivers. 
Nationally, over one in five older persons, 8 million people, does not 
drive. These individuals often rely on family and friends, who provide 
more than 1.4 billion trips per year, according to the 2009 NHTS.
    Older persons living in rural areas risk their ability to live 
independently if they do not drive. A 2006 study published in the 
American Journal of Public Health found that nondrivers in their semi-
rural sample of older adults were four times as likely as drivers to 
end up in long-term care, not necessarily because they needed long-term 
care services, but because they could no longer function independently 
without transportation. Over half of older nondrivers stay home on a 
given day which puts them at greater risk of isolation due to the 
inability to access needed services and the loss of connection to their 
community. This can lead to unforeseen and significant costs as social 
isolation is associated with an increase in serious health conditions 
and depressive symptoms.
    The population is also aging on our Nation's Indian reservations. 
Based on Census data presented in a 2007 report by the Small Urban and 
Rural Transit Center (SUTC), the population age 60 and above is 
somewhat higher in tribes in the lower 48 States than in the Nation as 
a whole (17 percent versus 16.3 percent nationally). Further, 31 tribes 
have older populations that are at least 20 percent of the total. South 
Dakota's tribal population age 60 and over is approximately 14 percent. 
The SURTC report, ``Tribal Transit Demographic Need Indicators'', 
places five South Dakota reservations among the top 25 reservations in 
the lower 48 States in mobility dependent populations (defined as older 
adults, persons with disabilities, low income, school age, and 
households without a vehicle) on a percentage basis. These tribes are 
the Crow Creek Sioux, Oglala Sioux, Lower Brule, Rosebud Sioux, and 
Cheyenne River.
Need for Transportation Services in Rural America
    Public transportation services are often very limited in 
nonmetropolitan areas. Indeed, two-thirds of South Dakota residents age 
50 and older reported in a recent AARP South Dakota survey that it 
would be difficult for them to get where they wanted to go if they were 
no longer able to drive. Further, 56 percent said that public 
transportation is simply not available in their community. This is a 
particular concern for the nearly two-thirds who reported that 
transportation services are extremely or very important to help people 
remain in their own homes as they age.
    The number of U.S. counties served by the Federal nonurban transit 
program (Section 5311) has been growing, yet 23 percent of counties 
still lack service. Where service is available, however, rural transit 
is a lifeline that helps older adults and persons with disabilities 
stay connected to their community and remain independent in their 
homes. The dispersed geographic character of rural America makes fixed 
routes less effective for serving the general public. Indeed, over 80 
percent of rural transit providers offer demand-response service, 
according to a 2012 report by the Small Urban and Rural Transit Center.
    Older adults and individuals with disabilities depend on these 
services and represent a disproportionate share of ridership in rural 
areas. In fact, persons age 60 and older make 31 percent of all rural 
transit trips, and people with disabilities, 23 percent.
    The need is especially pronounced in tribal areas as many 
reservations are extremely rural with less than 5 people per square 
mile and one-way travel distances may be well over 100 miles to the 
nearest regional center. Many tribes have high rates of extreme poverty 
making prohibitive the cost of gasoline and other costs of car 
ownership.
Importance of MAP-21 Federal Investment in Public and Specialized 
        Transportation
    Federal transit investments have played a critical role in rural 
and tribal areas. In fact, the Federal Transit Administration (FTA) is 
the primary funding source for 81 percent of rural transit vehicles. 
Specialized transportation, funded through FTA and other Federal 
agencies, is a lifeline for older nondrivers and their families. 
According to the 2009 National Household Travel Survey, senior 
nondrivers take 228 million trips per year on specialized 
transportation (in all geographic locations), comprising nearly two-
thirds of all their public transportation trips.
Funding
    FTA funding has contributed to the tremendous growth in the number 
of tribal transit services in the past decade, from 18 in 1999 to 
nearly 120 in 2011, covering about 20 percent of tribes. That the 
Tribal Transit program requires no Federal match has encouraged its 
growth. However, demand for new services remains very strong. From 
fiscal year 2006 through fiscal year 2010, the high number of funding 
requests and amount of funds requested for Tribal Transit far exceeded 
the ability to satisfy demand. Existing systems provide about 1.2 
million rides annually.
    Under MAP-21, formula grant programs affecting small town and rural 
communities received significant increases. For example, the Section 
5311 nonurban transit program is funded at nearly $600 million in 
fiscal year 2013, up from $465 million in fiscal year 2012, and will 
increase to approximately $608 million in fiscal year 2014. Tribal 
Transit funding is a takedown from Section 5311 and the amount 
dedicated to it is doubled to $30 million in both fiscal years 2013 and 
2014. Twenty-five million dollars of this amount is distributed by 
formula grant, with the balance distributed by competitive grant.
    Funding was also increased for the revised Section 5310 program, 
Enhanced Mobility for Seniors and Disabilities, above the total fiscal 
year 2012 levels for Section 5310 and New Freedom combined. (The 
revised program merges these two programs.) Funding is increased by 13 
percent above fiscal year 2012 levels in fiscal year 2013, for a total 
of $254.8 million, and by 15 percent above fiscal year 2012 in fiscal 
year 2014, for a total of $258.3 million.
Planning
    MAP-21 established several policy enhancements to Federal transit 
programs affecting rural areas. Planning is a vital component of high 
quality service delivery and is now an eligible activity for Section 
5311 funds. In addition, under the statewide planning program, there is 
a new State option to create regional transportation planning 
organizations (RTPOs) to address the needs of nonmetropolitan areas for 
planning, coordination, and implementation of long-range plans and 
Statewide Transportation Improvement Programs. The law also requires 
States to cooperate with nonmetropolitan local officials (or if 
applicable, through RTPOs) in planning activities covering 
nonmetropolitan areas, including the development of the Long-Range 
Statewide Transportation Plan. Finally, States are required to develop 
a consultative process for nonmetropolitan local official involvement 
(including through RTPOs) that is ``separate and discrete'' from the 
public involvement process.
    For the Section 5310 transit program for the elderly and 
individuals with disabilities, the law retains the requirement for a 
connection between projects and the locally developed coordinated 
public transit-human services transportation plan. This is discussed 
further below.
Program Features
    The Section 5311 program has a new eligibility, the Job Access and 
Reverse Commute program which links low-income workers to job 
opportunities. This eligibility also applies to the Section 5307 large 
urban program.
    Intercity bus service provides a critical link to local 
transportation services in rural areas and may offer the only access to 
distant medical centers for many rural residents. MAP-21 continues the 
requirement that States spend at least 15 percent of Section 5311 funds 
for intercity bus transportation. A new provision of the law allows the 
costs of private intercity bus operations to be treated as a match for 
the MAP-21-funded operating costs of rural intercity bus feeder 
service, providing greater flexibility for securing the Federal match.
    MAP-21 also creates a new formula-based program to increase public 
transportation access for residents within the Appalachian region. This 
program, a set-aside from the Section 5311 program, provides States $20 
million per year.
    The new law made several changes to the Section 5310 program, 
foremost among them being its merger with the former Section 5317 New 
Freedom program. AARP is pleased that the Committee and Congress did 
not advance full consolidation of the FTA specialized transportation 
programs. The purposes and goals of these two programs align well.
    The new program retains the designation, ``Section 5310,'' as well 
as the purposes of the original programs: to make grants for public 
transportation projects to meet the special needs of seniors and 
persons with disabilities when public transportation is insufficient, 
inappropriate, or unavailable (Section 5310); and to make grants for 
public transportation projects that exceed the requirements of the 
Americans with Disabilities Act (New Freedom). Newly established grant 
purposes include, (1) public transportation projects that improve 
access to fixed route service and decrease reliance on paratransit; 
and, (2) alternatives to public transportation for seniors and persons 
with disabilities.
    Under the new program structure, a minimum of 55 percent of funds 
must be used for the original purpose of Section 5310, as described 
above. The balance of the funding is reserved for the remaining 
purposes, described above.
    Importantly, operating assistance (with a 50 percent Federal match) 
is now an eligible expense under the Section 5310 program. This 
rectifies the long-standing discrepancy in which Section 5310 was the 
sole small transit program prohibited from using funds for operating 
expenses. This new eligibility will assist providers in paying the 
costs of gasoline, insurance, salaries, and other expenses necessary to 
put vehicles on the road. The allowance continues for funds from other 
(non-DOT) Federal programs to make up the local share of program costs.
    States continue to receive funding for the 20 percent of 5310 funds 
designated for rural areas, and the 20 percent designated for small 
urban areas. However, under MAP-21, 60 percent of funds is now 
allocated directly to large urban areas. Program subrecipients continue 
to include nonprofit providers. The competitive selection process, 
which was formerly required for the New Freedom program, is now 
optional.
Coordination of Human Services Transportation in MAP-21
    Mobility management remains eligible as capital expense under MAP-
21. The mobility management approach offers a single point of access 
that navigates multiple provider services to meet individual travel 
needs. Mobility managers may serve several functions, including helping 
communities develop coordination plans, brokering transportation 
services, and working with human service agencies that coordinate their 
clients' travel.
    As mentioned above, MAP-21 retains and strengthens the requirement 
that funds be contingent on the locally developed coordinated public 
transit-human services transportation planning process. The law 
specifies that projects must be ``included in'' (rather than ``derived 
from'') the coordinated plan. In addition, States and designated 
recipients must certify that transportation services are coordinated 
with those assisted by other Federal departments, including any carried 
out by a recipient of a grant from the Department of Health and Human 
Services (HHS).
    Significantly, the law makes newly explicit the requirement for 
participation by seniors and people with disabilities in the 
development and approval of the locally developed, coordinated public 
transit-human services transportation plan.
AARP Board Charge on Transportation Coordination
    In 2011, the AARP Board of Directors tasked the National Policy 
Council (NPC) with examining approaches to strengthen the coordination 
and delivery of transportation services to older adults and to make 
policy recommendations. Recognizing that the lack of transportation has 
particularly acute consequences in rural locations, the board charge 
paid particular attention to the challenges of serving rural older 
adults. In pursuing this charge, the NPC conducted three site visits 
and heard from a diverse array of over 60 experts, stakeholder 
organizations, and AARP representatives in the States. One of the 
Council's site visits was to South Dakota where they met with 
stakeholders in Sioux Falls, Pierre, Rapid City, the Cheyenne River 
Indian Reservation, and the Pine Ridge Indian Reservation. The Council 
met with leaders from major hospitals and transit agencies, the 
Secretary of Transportation and other State transportation officials, 
tribal leaders, chairs of the South Dakota House and Senate 
Transportation Committees, academics, and staff from the State's 
Congressional delegation.
    The Council observed that social networks are shrinking in many 
small, rural agricultural communities. In 1900, the typical farm was 
less than 200 acres. Today in South Dakota, it is not uncommon to find 
farms of 40,000 to 50,000 acres in size. Fewer people are needed to 
sustain an agricultural economy, thus many small rural communities are 
dying. The older population that remains has fewer younger relatives 
and neighbors to assist with transportation. Local budgets are 
shrinking as well, and cannot easily fill the gap. It was noted that 
one rural community chose to invest in public transit when it realized 
that its older residents were packing up and leaving for urban areas 
(and taking the tax base and their consumer expenditures with them) 
when the challenge of transportation became too great.
    The South Dakota site visit offered many positive examples of 
coordinated transportation services. The State DOT has long worked with 
human service agencies, such as the area agencies on aging (AAAs), to 
eliminate duplication of efforts. AAAs negotiate contracts with the 
local transit providers to obtain transportation for their clients. 
Section 5310 funding is almost entirely directed to local transit 
providers.
    River Cities Transit, based in Pierre, is an exemplar of a transit 
provider that has expanded coordinated transit services. It now serves 
11 counties, two Indian reservations, provides express service to 
hospitals and clinics in Sioux Falls, service to the airport, and 
coordinates its service to link customers to other transit providers in 
North Dakota. It is the transportation provider for all local YMCAs, 
employment training centers, and schools. RCT operates 24 hours a day, 
7 days a week, a remarkable level of service for a rural transportation 
provider.
    The South Dakota DOT's efforts at coordination predate and go 
beyond Federal requirements. In 1996, the Governor created the 
Transportation Planning and Coordinating Task Force comprised of 
representatives from the State departments of Transportation, Social 
Services, Health, and Human Services, and the Coalition of Citizens 
with Disabilities. The task force is charged with providing cost-
effective and efficient transportation services and reducing 
fragmentation and duplication of services. The intent of coordination 
is to increase vehicle use and ridership, thereby helping local 
agencies combine resources to better meet the mobility needs of the 
community. The DOT enforces Federal coordination requirements by tying 
FTA's specialized transit funding to the development of a coordinated 
public transit human services transportation plan. A regional 
coordinated plan must be in place for any eligible agency in the 
community to receive FTA specialized transit funding.
    In South Dakota and beyond, the Council was struck by the fact that 
many older people were simply unfamiliar with transit and needed help 
in getting started using it. Consumer education and outreach, such as 
transit travel training for prospective older riders, could overcome a 
number of cultural barriers to greater transit use.
    The Council also found that rural towns that are slowly dying could 
be helped by locating senior-friendly affordable housing in central 
areas of the towns thereby retaining the economic investments that flow 
from older residents. This would enhance access to transportation and 
medical care while allowing continued connections to social supports, 
such as family and churches.
Discovering the Health and Transportation Connection
    The Council learned that transportation is an essential service for 
access to health care and to enable older people to live independently. 
The changing nature of health care delivery presents its own set of 
challenges for rural residents as health care facilities locate in more 
centralized locales, increasing the travel distance required to obtain 
medical care. The shift from inpatient to outpatient medicine, 
particularly for dialysis and cancer treatment, is also placing 
increasing demands on transportation systems. In addition, findings 
from the National Health Interview Survey indicate that the lack of 
access to nonemergency medical transportation is a critical barrier to 
the management of chronic illness and disabilities. The Survey found 
that approximately 3.6 million adults living in the community fail to 
obtain health care due to a lack of transportation and these 
individuals are more likely to be older, minority, and female. They are 
also more likely to report multiple medical conditions and impairments 
that make transportation difficult and often cause them to miss 
critical medical appointments.
    The Committee's visit to the Avera Cancer Institute in Sioux Falls 
demonstrated that the coordination of health and transportation 
services is essential to providing quality patient-centered care. Avera 
staff noted that the lack of convenient and reliable transportation is 
the top barrier to care for their patients. Sixty-eight percent of the 
Institute's patients live outside of the Sioux Falls area traveling up 
to 255 miles from locations in South Dakota, Iowa, and Minnesota. 
Cancer treatment typically involves regular, at times daily or weekly, 
visits to medical facilities, presenting a serious challenge for 
patients who are too weak to drive after treatment or who lack the 
human or financial resources to find other means to get to and from 
lifesaving treatment.
    Avera assigns patient navigators to identify barriers to treatment 
and to make referrals. Social workers at the Center assist patients 
with transportation needs, working closely with the medical staff and 
transportation providers to accommodate treatment to transportation 
resources. Fragmented service patterns, long application and waiting 
periods, and lack of transportation resources are major barriers. Avera 
attempts to bridge gaps in transportation resources through donations 
from its Foundation and employees to pay for taxi vouchers.
    South Dakota's high rate of mastectomies also illustrates how the 
lack of transportation impacts patient care. Avera staff noted that 
many women will choose a treatment based on the number of visits 
required and because of transportation concerns will favor those with 
less time required for radiation.
    As part of Board Charge study, the Council also learned that 
Medicaid is the largest public payer of nonemergency medical 
transportation (NEMT) services for older adults and people with 
disabilities. NEMT may include, for example, transportation to doctors' 
appointments, dialysis, and chemotherapy. While data on total Medicaid 
spending for transportation is not collected, estimates range from 
close to $1 billion to slightly more than $3 billion annually, dwarfing 
expenditures by many Federal transit programs.
    Currently, CMS does not track nonemergency medical transportation 
(NEMT) expenditures in a way that facilitates rigorous analysis and 
development of solutions to better coordinate and improve services. 
Under current reporting guidelines, those transportation costs that are 
classified as an administrative expense (rather than a medical service) 
are not itemized within the larger category of administrative expenses, 
thus the full amount of Medicaid spending on transportation services is 
unknown. According to a 2002-2003 survey by the National Consortium on 
the Coordination of Human Services Transportation, 13 States reported 
that they classified transportation services to be paid as an 
administrative expense. Another 12 States classify transportation 
expenditures as both administrative and a medical service (for which 
transportation expenses are tracked and reported).
    States may qualify for full Medicaid Federal match reimbursement if 
they bill NEMT as a medical expense and meet other requirements, such 
as a transportation brokerage system. The Deficit Reduction Act of 2006 
allows States to contract with brokers to manage NEMT services, which 
are required to be cost effective, and for which providers must be 
selected through a competitive bidding process. As of 2009, 38 States 
used brokers to contain NEMT costs and ensure quality of service.
    In addition to Medicaid, Federal funding for transportation 
services is also provided through other programs of HHS, most notably 
Title III-B supportive services and the services for Native Americans 
under Title VI of the Older Americans Act (OAA). Under Title VI, the 
OAA provides funds to American Indian and Alaska Native elders for an 
array of supportive services, including transportation. No local 
matching funds are required. In fiscal year 2008, Title VI provided 
roughly 1 million rides to meal sites, medical appointments, 
pharmacies, markets, and other essential destinations for elders.
    The Council also learned that the Affordable Care Act has placed a 
priority on reducing the high cost of unnecessary hospital 
readmissions, improving care coordination and transitions of care, and 
supporting community-based care. Transportation is essential to each of 
these care goals.
    Key findings from the AARP National Policy Council Board Charge on 
Transportation Coordination include the following:

  <bullet>  A ``bottom up'' approach is effective in strengthening the 
        coordination of transportation services and developing new 
        partnerships to expand services. Strong local leadership is 
        critical for success, but coordination should be fostered at 
        all levels to strengthen the transportation network. A case 
        study of River Cities Transit is included in a forthcoming 
        report by AARP's Public Policy Institute that highlights local 
        providers from around the country that demonstrate successful 
        coordination of funding sources to provide quality 
        transportation services.

  <bullet>  Coordinating health services and transportation is 
        essential to quality, patient-centered care. Staff at the Avera 
        Cancer Institute in Sioux Falls, SD, told the Council that the 
        lack of convenient and reliable transportation is the greatest 
        barrier to care for their patients. South Dakota's high rate of 
        mastectomies illustrates how the lack of transportation impacts 
        patient care: Studies find that many women choose a treatment 
        based on the number of visits required and favor those with 
        less time required for radiation because of transportation 
        concerns.

  <bullet>  Due to severe fiscal constraints on States, Federal funding 
        for transportation, including from human service agencies is 
        more essential than ever. Sustaining and making more efficient 
        use of transportation-related funding is essential as most 
        States are unlikely to be able to significantly increase 
        contributions to transportation services. The Centers for 
        Medicare and Medicaid Services (CMS) is the largest public 
        payer of nonemergency medical transportation services to older 
        adults and persons with disabilities.

  <bullet>  Additional funding for mobility management would strengthen 
        coordination and increase the quality of transportation 
        services. The inclusion of dedicated funding for mobility 
        managers through the U.S. DOT and other Federal agencies would 
        strengthen the coordination and quality of services.

  <bullet>  Technology has a significant role in improving the 
        efficiency and quality of transportation services. Ride 
        scheduling software and other technology enable ``one call'' 
        transit services and are key elements in achieving the goal of 
        efficient use of transportation assets and improving the 
        quality and coordination of services.
AARP South Dakota Works To Advance Transportation Coordination
    AARP South Dakota is committed to addressing the transportation 
challenges and opportunities in our State. Dennis Eisnach, our 
volunteer State president, provides incredible leadership on this issue 
and feels passionately that a resident of our State should have access 
to transportation choices regardless of where they live and that AARP 
South Dakota must address this issue or many older South Dakotans will 
not have the option to age in their homes.
    After hearing from volunteers and members from across South Dakota 
regarding the transportation challenges they face on a daily basis, 
AARP South Dakota has prioritized working on transportation 
coordination in 2013 and beyond. Our long-term goal is to work with our 
partners in our State to implement a one call system that will allow 
our residents to be able to make a single call to receive a ride at any 
time for any need.
    Thanks to Ron Baumgart with River Cities Public Transit, Barb Cline 
with Prairie Hills Transit and Northern State University's Dr. Jim 
Seeber and the Northeast South Dakota Regional Aging Council, much work 
has already been done in this area with much more left to do. AARP 
South Dakota also appreciates Bruce Lindholm and the South Dakota 
Department of Transportation's efforts to work with us on this issue.
    AARP South Dakota, along with many other leaders in our State, know 
this solution won't come quickly but the work over the long term will 
provide the results we want.
Looking Ahead in South Dakota
    According to the 2010 South Dakota DOT Long Range Plan, the State 
population is shifting from rural to urban communities. For the first 
time in South Dakota history, the urban population was found to be 
greater than the rural population. One consequence of this development 
is that persons with disabilities who live in these more densely 
populated communities and do not drive will need to rely on costly 
complementary paratransit services if they are unable independently to 
access a bus stop due to missing or broken sidewalks, an inaccessible 
bus stop, or other road obstructions. Well-constructed and maintained 
sidewalk networks can result in great savings for paratransit services.
    Economic conditions can be strengthened by increasing coordination 
between separate funding resources, thereby amplifying the impact they 
would have independently. This approach is underway through an effort 
by the Oglala Lakota Tribe on the Pine Ridge Reservation and the 
Thunder Valley Community Development Corporation with assistance from a 
HUD Sustainable Communities Regional Planning Grant. Agencies including 
the reservation's Housing Authority, Environmental Protection Program, 
Chamber of Commerce, and Health Administration will collaborate on the 
development of the regional plan that seeks to integrate housing, land 
use, economic development, transportation, and infrastructure 
investments across a wide southeastern swath of South Dakota. Residents 
will be involved in all stages of the planning process. Success in this 
approach for such an economically challenged community could 
demonstrate the valuable benefits that can be achieved, perhaps with 
more ease, by those communities that are less challenged.
Human Services Transportation Coordination
Status of Federal Efforts
    The Government Accountability Office has examined the status of 
human services transportation coordination many times beginning as far 
back as 1999. The GAO has stated that it cannot determine the total 
amount spent on transportation because agencies often do not separately 
track transportation costs from other program costs. It has also noted 
that most Federal departments on the Federal Interagency Coordinating 
Council on Access and Mobility (CCAM) do not have an inventory of 
existing programs or related expenditure information for transportation 
services. (Council member agencies include DOT, HHS, Education, 
Veterans Affairs, Labor, Interior, and HUD.)
    In its March 2011 report, the GAO recommended that Federal agency 
members of the CCAM identify and assess their transportation programs 
and related expenditures. It also called on the agency members to work 
with other departments to identify potential opportunities for 
additional coordination, such as the use of one-call centers, 
transportation brokerages, or shared resources. In addition, the GAO 
has advised that Federal departments develop and disseminate policies 
and guidance to their grantees on coordinating transportation services. 
Many of these grantees, for instance, are unclear about cost sharing 
and vehicle sharing among programs.
    In its June 2012 report, GAO noted that the Coordinating Council 
leadership has not met since 2007 and that momentum has stalled. It 
further shared the observations of agency officials that the absence of 
activity from leadership contributes to a lack of buy-in from program 
officials and may affect how coordination is treated at the State and 
local levels. Further, the CCAM is missing a strategic plan with roles 
and responsibilities, measurable outcomes, or required follow-up.
    One notable demonstration of progress, however, is the Veteran's 
Transportation & Community Living Initiative, launched in July 2011. As 
part of the Coordinating Council's Veteran's Affairs working group, the 
Departments of HHS, Labor, Transportation, and Veterans Affairs 
developed the initiative. The FTA has made over $30 million in Bus and 
Bus Facilities grant funding available to local governmental agencies 
to finance the capital costs of implementing, expanding, or increasing 
access to local One-Call/One-Click Transportation Resource Centers. 
This funding is complemented by training, technical assistance, 
outreach, and social media technology investments provided by FTA and 
other agencies, including the Departments of Veterans Affairs and 
Labor. HHS and the Department of Defense are also lending critical 
support.
Recommendations
  <bullet>  AARP supports the GAO's recommendation that agencies 
        identify their transportation-related expenditures. For 
        instance, the Medicaid program could increase its transparency 
        regarding transportation expenditures by requiring States to 
        itemize both their administrative and medical NEMT expenses on 
        CMS Form 64. Data collection systems should be designed to 
        report expenditures on NEMT, as well as emergency 
        transportation, and transportation funded through waivers, both 
        in the aggregate and by State. Information on State Medicaid 
        NEMT programs and service delivery, such as use of brokers, 
        should also be available.

  <bullet>  AARP also endorses the GAO's recommendations that the 
        Coordinating Council complete and publish a strategic plan, and 
        report on the progress of the Council's recommendations in a 
        report to the President in 2005. These recommendations included 
        seeking mechanisms to require human service transportation 
        programs to participate in coordinated planning, promote 
        vehicle sharing, develop allocation principles to enable cost 
        sharing, and develop reporting and evaluation methods. In 
        addition, Federal agencies should develop guidance to their 
        grantees regarding participation in coordination efforts at the 
        local level.

  <bullet>  Funding should also be increased for mobility management 
        activities which would advance coordination significantly. 
        These activities should include the acquisition of advanced 
        technology for routing and scheduling trips. Such technology 
        has been found to reduce operating costs.

  <bullet>  Data should be collected and reported annually regarding 
        program information for the Section 5310 program, including at 
        a minimum the number of trips, vehicles, vehicle age, trip 
        purpose, and number of clients. The authors of the Rural 
        Transit Fact Book note that a number of rural transit providers 
        receive funding under the section 5310, but that national data 
        on their programs is not available since there is no 
        requirement to report to the National Transit Database.

  <bullet>  Integrate and streamline Federal grant applications and 
        reporting requirements. A balance should be struck between 
        solid data and burdensome administrative requirements.

  <bullet>  Encourage State coordinating councils on human services 
        transportation in the 23 States that do not have them (as of 
        December 2011). South Dakota has demonstrated that high quality 
        services can be fostered through this approach.
Additional Transportation Recommendations
  <bullet>  Funding should be increased for Section 5310, the nonurban 
        transit program, and the Tribal Transit program. These services 
        are vital to maintaining independence, and in rural areas are 
        lifelines. Demand already far exceeds supply and is growing.

  <bullet>  Expand and improve the quality of the larger public 
        transportation program, including increased funds for capital 
        assistance and operating subsidies. Promote the use of public 
        transportation by older people and people with disabilities 
        through transit travel training.

  <bullet>  Remove the barriers for participation in volunteer driver 
        programs by increasing the charitable standard mileage 
        reimbursement rate to that for business-related driving. 
        Programs in rural areas are losing volunteers who cannot absorb 
        the high cost of gasoline to travel long distances.

  <bullet>  Ensure that transportation agencies routinely design and 
        operate the entire right of way to enable safe access for all 
        road users of all ages and abilities, including drivers, 
        transit users and vehicles, pedestrians, and bicyclists. This 
        will allow people with disabilities to safely access public 
        transportation, and will create safer roads to address the 
        alarming pedestrian fatality rate among older people, currently 
        higher than that for any age group.

  <bullet>  Facilitate the ability of local communities to employ 
        Federal funding in a way that allows transportation and housing 
        investments to support each other. Authorize funding for 
        competitive planning grant programs to enable communities to 
        develop comprehensive regional plans that incorporate 
        transportation, housing, community and economic development. In 
        addition, funding for grants to implement comprehensive 
        regional plans should also be authorized. These projects will 
        help communities create and preserve affordable housing and 
        multimodal transportation near housing. Seniors are able to age 
        more successfully in such places where destinations are close 
        by and where they have transportation options by which to reach 
        them.

    Thank you, Chairman Johnson, for this opportunity to testify before 
you today. I welcome any questions you may have.

</pre></body></html>
